<html>
<title> - ASSESSING THE COLOMBIA PEACE PROCESS: THE WAY FORWARD IN U.S.-COLOMBIA RELATIONS</title>
<body><pre>[Senate Hearing 115-676]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-676

              ASSESSING THE COLOMBIA PEACE PROCESS: THE WAY 
                   FORWARD IN U.S.-COLOMBIA RELATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON WESTERN
                    HEMISPHERE, TRANSNATIONAL CRIME,
                  CIVILIAN SECURITY, DEMOCRACY, HUMAN
                   RIGHTS, AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 2, 2017
                               __________



       Printed for the use of the Committee on Foreign Relations

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-610 PDF                 WASHINGTON : 2019


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




       SUBCOMMITTEE ON WESTERN HEMISPHERE, TRANSNATIONAL        
           CRIME, CIVILIAN SECURITY, DEMOCRACY, HUMAN        
               RIGHTS, AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  TOM UDALL, New Mexico
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
JOHNNY ISAKSON, Georgia              TIM KAINE, Virginia

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator from Florida.....................     1


Menendez, Hon. Robert, U.S. Senator from New Jersey..............     4


Brownfield, Hon. William R., Assistant Secretary, Bureau of 
  International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State, Washington, DC............................     6

    Prepared statement...........................................     7

    Responses to Additional Questions for the Record Submitted to 
      Hon. William Brownfield by Senator Marco Rubio.............    47


Palmieri, Francisco, Acting Assistant Secretary, Bureau of 
  Western Hemisphere Affairs, U.S. Department of State, 
  Washington, DC.................................................     9

    Prepared statement...........................................    11

    Responses to Additional Questions for the Record Submitted to 
      Francisco Palmieri by Senator Marco Rubio..................    47
Cardenas, Jose, Former Acting Assistant Administrator, Bureau for 
  Latin America and the Caribbean, U.S. Agency for International 
  Development, Washington, DC....................................    28

    Prepared statement...........................................    29


Gonzalez,Juan, Associate Vice President, The Cohen Group, 
  Washington, DC.................................................    32

    Prepared statement...........................................    35

    Responses to Additional Questions for the Record Submitted to 
      Juan S. Gonzalez by Senator Marco Rubio....................    51


              Additional Material Submitted for the Record

Statement Submitted by Hon. Camilo Reyes, Ambassador of Colombia.    52


Statement Submitted by Jose Miguel Vivanco, Executive Director of 
  the Americas Division, Human Rights Watch......................    55


Statement Submitted by Alvaro Uribe Velez........................    56




                             (iii)        

 
                      ASSESSING THE COLOMBIA PEACE
                        PROCESS: THE WAY FORWARD
                       IN U.S.-COLOMBIA RELATIONS

                              ----------                              


                       WEDNESDAY, AUGUST 2, 2017

                               U.S. Senate,
 Subcommittee on Western Hemisphere, Transnational 
Crime, Civilian Security, Democracy, Human Rights, 
                         and Global Women's Issues,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio [presiding], Gardner, Menendez, 
Udall, Shaheen, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good morning. This is a hearing of the 
Subcommittee of the Western Hemisphere. I will give you the 
whole title: Transnational Crime, Civilian Security, Democracy, 
Human Rights, and Global Women's Issues. We have to come up 
with a good acronym.
    The title is, ``Assessing the Columbia Peace Process: The 
Way Forward for U.S.-Colombia Relations.''
    We are going to have two panels. The first is a government 
panel. Mr. William Brownfield is the Assistant Secretary of 
State at the Bureau of International Narcotics and Law 
Enforcement; and Mr. Francisco Palmieri is the Acting Assistant 
Secretary of State in the Bureau of Western Hemisphere Affairs.
    The second panel will be non-government witnesses who have 
extensive government experience. Mr. Jose Cardenas, three 
decades of experience in the Western hemisphere in inter-
American relations. He served in senior positions in the U.S. 
Department of State, the National Security Council, the U.S. 
Agency for International Development, where he served as the 
Assistant Administrator for Latin America and the Caribbean; 
and Mr. Juan Gonzalez, who has spent 16 years in government 
service focused on Latin America and the Caribbean with the 
State Department, the National Security Council, and the Office 
of the Vice President.
    I welcome all the witnesses here today.
    I am going to abbreviate my comments. We have a vote at 
11:00, and so I want to get through this as quickly as possible 
because at some point there will be an interruption.
    But let me just say that since the `90s we know that 
Colombia has fought a battle against narco-terrorist 
organizations that threaten the very existence of the Colombian 
state. At one point it was on the verge of collapse. The road 
to recovery for that nation has been long and arduous, one that 
has unfortunately claimed far too many victims along the way.
    With the full support of the Colombian Government, 
beginning with President Uribe, and broad bipartisan support in 
the United States, the U.S. Government has played a crucial 
role in aiding and training and equipping the Colombian 
Government in their fight against the insurgencies that were 
brought about by the FARC, the ELN, and other groups.
    Through Plan Colombia, the United States provided foreign 
aid and military assistance that included strategies to 
increase security and to eradicate cocoa, and the cooperation 
between the U.S. and Colombia has been critical over the past 
16 years. It has been supported by Republicans and by 
Democratic administrations, and the success of the plan has 
reduced drug-related violence while aiding in the restoration 
of rule of law and reviving the Colombian economy.
    I do think it is important to add here that while the U.S. 
assistance has been critical, the bulk of the sacrifice, the 
work and the dedication has been on the shoulders of the 
Colombian people and their leaders, and they deserve 
extraordinary credit. But the United States has played an 
invaluable role.
    The result of it is the Colombian military is now the best 
armed and trained in Latin America. It is a reliable security 
partner for the United States. It is also exporting its 
expertise to help build the capacity and the capability of 
other countries in the region, particularly in Central America.
    The success of this cooperation led to the culmination in 
2012 of talks between the Colombian Government and the 
Revolutionary Armed Forces of Colombia, better known as the 
FARC, still designated, and rightfully so, as a terrorist 
organization. Our joint efforts and the determination and 
leadership of former President Uribe and its current President 
Santos, and Villegas, Minister of Defense, created the space 
for these negotiations to even be possible.
    These negotiations led to an agreement that was initially 
rejected in the national referendum but that nevertheless 
passed through the Colombian legislature after the fact. The 
core provisions in this agreement include land and rural 
development, the FARC's political participation, efforts to 
counter illicit crops and drug trafficking, work on victim 
reparations and transitional justice, and the demobilization 
and disarmament of the FARC and a bilateral ceasefire.
    Now, while obviously it is the sovereign decision of a 
sovereign nation to determine whether the peace deal is a good 
idea and how to move forward on it, as American policymakers we 
now have to determine, as this is being implemented, what role 
we will play in continuing assistance to Colombia and whether 
our interests are aligned with the work that is being done.
    There have already been two provisions in the agreement 
implemented. The FARC has demobilized, or allegedly demobilized 
into 26 rural concentrated zones. Some claim that up to 7,000 
combatants have turned in their arms, but there are still many 
concerns that remain unresolved. Despite the agreement, more 
FARC rebels than the Colombian Government initially thought are 
deciding not to participate in the agreement. Remnant groups of 
the FARC, such as the ELN and BACRIM, are rushing to fill the 
void left by the FARC in areas where they have demobilized, and 
they are now occupying territory that was once controlled by 
the FARC.
    There are other troubling signs. There are reports that 60 
leading rights defenders were killed in 2016, a significant 
increase from the 41 in 2015. The vast majority of these 
threats occurred in the zones that were previously occupied by 
the FARC. These numbers are alarming, and they cannot be 
ignored in this process.
    Further drawing on the element of the security is the 
illicit drug trade. In the past couple of years, Colombia has 
experienced a drastic increase in the coca crops. According to 
reports issued this year by the State Department, Colombia has 
had a 42 percent increase in illegal coca cultivation since 
2014 through 2015, and the same report attributes the increase 
to a number of factors, including the Government's decision, 
the Santos Government's decision to terminate coca eradication 
through aerial spraying.
    The result is that Colombia, sadly, is once again the world 
leader in coca production and illicit narcotics trafficking, 
with record amounts of both helping to fuel violence in Central 
America and Mexico, and the repercussions are being felt 
throughout the region, including our own borders where, 
according to U.S. Customs and Border Protection, the amount of 
cocaine seized in the nation increased dramatically in 2014 and 
2015 to coincide with the dramatic increase in cultivation. 
Just two weekends ago, the Costa Rican Ministry of Public 
Security reported they have intercepted 9.4 tons of cocaine 
just this year. Of course, this flow of cocaine is only 
furthering corruption and security concerns in the region.
    So while I applaud the efforts made by the Columbian 
Government to reach a peaceful agreement with those who once 
tormented and destabilized the country, I think there are 
concerns about the way this plan is being implemented, and more 
importantly, how U.S. foreign policy and U.S. assistance 
overlays with the current agreement.
    Clearly, more work remains in order to truly achieve not 
just peace but security. Peace without security is not peace. 
The support of the Colombian people in this transition and the 
assurance of justice to the victims of this conflict, 
particularly the victims of these narco-terrorists, is 
essential.
    So I look forward to hearing from our witnesses today as we 
begin to assess the way forward on the U.S.'s participation 
with Plan Colombia and to hear their recommendations for the 
administration and for Congress as we look to address the 
growth in narcotics trafficking and support our allies, the 
Colombian Government, in securing their country, because in 
many ways the most difficult part of this job remains ahead.
    And now I recognize the ranking member, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, for holding a 
very important hearing today. I know that you and I both have a 
keen interest in the implementation of the peace accords in 
Colombia and how they impact overall security and stability in 
our hemisphere.
    I am very pleased that we have administration witnesses, 
which is a rarity so far in this Congress, and esteemed ones at 
that, who will be able to offer insight and expertise on the 
issues that we will discuss today.
    Over the past few decades the United States and Colombia 
have had a productive, cooperative, successful relationship. We 
have worked together to address shared challenges, including 
the scourge of narco-trafficking, working to promote regional 
cooperative programs, including the Caribbean Energy Security 
Initiative, and recently speaking with one voice about the 
importance of preserving democratic institutions and peace in 
Venezuela.
    While we could have an entire hearing on our trade 
relationship and the importance of protecting labor rights, 
suffice to say when we have challenges in our relationship, we 
have the foundation of a strong relationship and strong 
institutions through which to address them.
    Today, however, we are focusing on the implementation of 
Colombia's peace plan and implications for regional security 
and stability. Building off misguided ideological movements of 
the mid-1900s, the FARC, the ELN, right-wing paramilitary 
groups and other spoilers ravaged the Colombian population and 
country for decades. Many consider the Colombia peace accords 
one of the greatest achievements in the region in recent 
memory, providing the opportunity to end the region's longest 
war and bring stability and prosperity to the entire country.
    While some, including some in Colombia, may have wanted to 
see different final terms of an agreement, as a recent Atlantic 
Council Task Force report, which I commend to anyone who may be 
interested, put it, ``Applied robustly, the peace accord 
represents an historic opportunity to extend state presence and 
democratic institutions throughout Colombia's territory, with 
corresponding peace dividends, security, stability, counter-
narcotics, economic development, and measures to address the 
long-term roots of violent conflict that cost more than 220,000 
lives. Applied poorly, the agreement may sap government 
resources while leaving gross war crimes unpunished and 
allowing new illegal armed groups to appropriate the FARC's 
territory and illicit activities.''
    So I am eager to hear from our witnesses their assessment 
of implementation so far and what we can do to ensure that we 
are rigorously and robustly assisting in the implementation of 
this plan.
    Of course, the Colombian people have borne the burden of 
the previously seemingly intractable insurgency. Women, Afro-
Colombians, indigenous communities, rural Colombians have 
disproportionately suffered and shed blood for this internal 
conflict. It is incumbent upon the Colombian Government to 
uphold commitments to those Colombians who suffered the most at 
the hands of the FARC. Millions of Colombians are still 
mourning the death of family members as thousands are still 
searching for disappeared loved ones. Many are still suffering 
from the trauma of violence.
    In order to fully realize the potential of a grand bargain, 
the Government must invest in roads, hospitals, schools, and 
promote a better future for all of its citizens, many of whom 
have suffered under years of neglect and lack of investment. 
Criminal networks and guerilla operations were successful in 
part because they exploited an absence of responsible 
government.
    At the same time, the Government cannot exclusively focus 
its efforts on what it considers the positive components of the 
peace accord. I have been deeply alarmed by reports over the 
past few years that coca production is surging in Colombia. 
Official numbers show that coca production increased 18 percent 
between 2015 and 2016. It would appear that the Government is 
so focused on its peace deal with the FARC that it runs the 
risk of overlooking the dangerous actors who are still too 
eager to exploit their departure from the lucrative, 
disruptive, and dangerous narco industry.
    The Colombian Government must seriously address this 
growing crisis as we in the United States continue to combat 
demand. It must clearly delineate roles for the military and 
the police, and it must equip these forces with the resources 
they need to not only go after traffickers but at the root 
level the Government needs to work with farmers to provide 
viable crop alternatives and economic opportunities.
    At the mid-level of government, with the support of the 
United States, it must explore the supply chain and the 
financial networks that facilitate the cultivation and 
exportation of these programs. Transnational criminal 
organizations operate like businesses, and we must holistically 
address them to combat this problem effectively. Banks and 
financial institutions need resources to track the money of 
criminal actors and to recover assets that can be used towards 
promoting better practices.
    The peace deal will leave a vacuum in the fields of 
Colombia, and we must ensure it is not refilled with coca. 
There is a real need to ensure we build the capacity of 
Colombian institutions to cut off the body of the snake as well 
as the head. As Plan Colombia proved, U.S. engagement; 
sustained, reliable investment focused on combatting criminal 
narco trafficking; economic development; and supporting 
democratic institutions that will ultimately guarantee peace, 
security, and accountability in the long term is critical for 
success.
    So I am interested to hear from our witnesses about ongoing 
efforts to transfer from a war-ending effort to a peace-
building one. The fact is a lasting and enduring peace is in 
the national interest of both Colombia and the United States. 
Keeping in mind the historically important and strong 
relationship we have with Colombia, it is my hope that we can 
find productive and positive ways to address these challenges 
and focus on a more prosperous and secure future for both of 
our countries.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Let us begin with our witnesses.
    Secretary Brownfield, thank you for being here.

 STATEMENT OF HON. WILLIAM R. BROWNFIELD, ASSISTANT SECRETARY, 
BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Brownfield. Thank you, Mr. Chairman. Chairman Rubio, 
Ranking Member Menendez, Senator Shaheen, thank you for the 
opportunity to appear today to discuss the Colombia peace 
process and counter-narcotics efforts after the peace 
agreement.
    It is impossible not to celebrate the end of 50 years of 
armed conflict. In fact, the accord was facilitated by generous 
support from this Congress and the United States. Since the 
inception of Plan Colombia, homicides dropped by more than 50 
percent, kidnappings by 90 percent, and until 2013 cocaine by 
60 percent. Fueled by security success, foreign investment and 
economic growth boomed in Colombia.
    But as we celebrate the accord, we must not forget that one 
of the parties to the accord has been designated for years as a 
foreign terrorist organization and a drug trafficking 
organization. In fact, in the final three years of the 
negotiations, coca cultivation in Colombia grew 130 percent, 
and cocaine production more than 200 percent. I do not lay all 
of this at the FARC's feet. The Government itself reduced the 
eradication by ending aerial spraying in 2015. But the FARC was 
a key enabler of the cocaine explosion. They aggressively 
encouraged planting more coca in their regions of influence, 
hoping to receive more economic assistance from the Government. 
They established front groups to resist eradication and crop 
control efforts. They refused to assist law enforcement in 
bringing to justice drug trafficking organizations by providing 
evidence and information, and to this day they decline to 
reveal their revenue and assets acquired during decades of 
criminal activity.
    We now have a crisis not just in Colombia but in the United 
States. I have visited Colombia twice in the past two months to 
address this crisis. In each visit I acknowledged publicly that 
the Colombian police and armed forces have done a heroic job of 
interdiction. Their 2016 seizures grew 40 percent from the year 
before, to more than 421 metric tons.
    But Colombia cannot interdict its way out of this problem, 
and we have discussed six steps we can take together to reverse 
the trends.
    First, a serious Colombian national strategy to address the 
crisis.
    Second, designating a national coordinator for a whole-of-
government effort. President Santos wisely placed his vice 
president in charge of this effort.
    Third, an expanded and robust budget for counter-narcotics.
    Fourth, enhanced eradication efforts, including areas 
previously off-limits to forced eradication.
    Fifth, a strategy to deal with the political realities of 
coca growers' protests driving away eradicators.
    And sixth, a commitment to continue to use extradition as a 
tool against those involved in drug trafficking.
    Mr. Chairman, members of the subcommittee, eradication has 
picked up in 2017. I am moderately optimistic that this year 
will cap the increase in Colombian cocaine production and maybe 
begin a downward trend line. It is in the national interest of 
neither country that Colombia continue its surge in coca and 
cocaine production. I believe we will solve this latest drug 
crisis because we are close partners and friends for more than 
17 years. But we have a long way to go, and the FARC has not 
made it easy for us.
    Thank you, Mr. Chairman, and I look forward to your 
questions and your comments.


    [Mr. Brownfield's prepared statement follows:]


            Prepared Statement of Hon. William R. Brownfield

    Chairman Rubio, Ranking Member Menendez, distinguished members of 
the subcommittee, thank you for the opportunity to appear before you 
today to discuss counternarcotics efforts in Colombia after the peace 
agreement. Implementation of an effective counternarcotics plan for 
Colombia is more important now than ever. At a time when the Colombian 
Government is implementing a peace accord that promises to keep the 
Revolutionary Armed Forces of Colombia (FARC) off the battlefield and 
out of the illicit economy, we have a limited window of opportunity to 
roll back the recent troubling narcotics trends that threaten the 
safety and health of citizens here in the United States as well as in 
Colombia and throughout the rest of the Western Hemisphere.
    The Government of Colombia has been our strong partner in the fight 
against crime and narcotics for more than two decades. Since 2000, the 
United States has invested more than $10 billion to improve citizen 
security, disrupt the drug trade, and combat criminal networks to 
advance peace and prosperity. Working with our Colombian partners, our 
joint efforts have produced positive results. Since 2002, homicides in 
Colombia have fallen by more than 50 percent and kidnappings have 
dropped by 90 percent; in 2016, Colombia had its lowest reported 
homicide rate in 40 years. Our shared successes in the security realm 
also brought the FARC, which is extensively involved in the drug trade, 
to the negotiating table and helped make possible the conclusion of a 
peace accord.
    However, after years of progress in combatting coca cultivation and 
cocaine production, Colombia is once again the world's largest producer 
of cocaine and is the origin of approximately 90 percent of the cocaine 
seized in the United States, according to the DEA Cocaine Signature 
Program. Between 2013 and 2016, coca cultivation in Colombia increased 
by more than 130 percent, from 80,500 hecatres (ha) in 2013 to 188,000 
ha in 2016. Perhaps more troubling, pure potential cocaine production 
surged by more than 200 percent in the same time period, from 235 
metric tons produced in 2013 to 710 metric tons in 2016. Cocaine use 
and overdose deaths in the United States also are on the rise. 
Following a dramatic decline in cocaine overdose-related deaths in the 
United States since 2006, this figure has steadily increased since 
2012, reaching 6,784 overdose-related deaths in 2015, the highest on 
record since 2006.
    This surge is due to multiple factors. These include Colombia's 
decision in 2015 to end the U.S.-supported aerial coca eradication 
program as well as countereradication techniques implemented by coca 
growers. Widespread reporting indicates FARC elements urged coca 
growers to plant more coca, purportedly motivated by the belief that 
the Colombian Government's post-peace accord investment and subsidies 
would focus on regions with the greatest quantities of illicit crops. 
The Colombian Government also reduced forced manual eradication 
operations in areas controlled by the FARC to lower the risk of armed 
conflict as the parties negotiated a final peace accord. Finally, 
Colombia's manual eradication budget has declined by two-thirds since 
2008, resulting in a 90 percent reduction in the number of manual 
eradicators in 2016 compared to 2008.
    In the lead up to the official cessation of the aerial eradication 
program in September 2015, Colombian President Juan Manuel Santos 
announced a counternarcotics strategy laying out three priority areas: 
rural development programs to reduce drug cultivation, including 
voluntary eradication and crop substitution for coca growers; enhanced 
law enforcement efforts to dismantle organized crime groups; and public 
health approaches to address domestic drug consumption. These 
priorities conform to the counternarcotics-related aspects of the peace 
accord, which focus on a national crop substitution and alternative 
development plan to be implemented in 44 municipalities where 60 
percent of the coca is cultivated.
    The voluntary eradication and crop substitution plan includes the 
creation of a coordination and communication mechanism for crop 
substitution; hiring technicians to help implement this plan; granting 
of land titles to program participants; and cash payments for food 
subsidies, medium-term employment contracts for infrastructure 
projects, and other payments for long-term crop substitution such as 
cacao. The United States is not currently supporting the Colombian 
Government's voluntary eradication and crop substitution program 
because the FARC is involved in some aspects of the program and remains 
designated as a Foreign Terrorist Organization under several U.S. laws 
and sanctions regimes.
    The Colombian Government is operationalizing its counternarcotics 
strategy through the Ministry of Defense (MOD)-led Centros Estrategicos 
Operacionales/Strategic Operational Centers, or ``CEOs,'' concept, 
which is an integrated, whole-of-government approach to 
counternarcotics and rural development. In early January, the Colombian 
Government began implementing the CEO concept in the municipality of 
Tumaco--a critical area for coca cultivation and cocaine production and 
other illicit activity. The Government plans to expand this effort to a 
total of four CEOs servicing the 11 departments with the highest levels 
of coca cultivation. Embassy Bogota continues to support the Colombian 
Government in this effort.
    To date, the results of Colombia's counternarcotics strategy have 
been mixed. In 2016, Colombia's land and maritime interdiction of 
cocaine and cocaine base increased over 40 percent from 2015 to a 
record high of approximately 421 metric tons, according to Colombian 
official statistics. Additionally, 4,613 cocaine base labs and 229 
cocaine hydrochloride labs were destroyed in 2016. Colombian efforts 
led to the extradition to the United States of major transnational 
organized criminals, including Nidal Ahmed Waked-Hatum, and the taking 
down of narcochiefs, including Victor Ramon Navarro-Cerrano (a.k.a. 
Megateo).
    While these efforts are impressive and the commitment and sacrifice 
of the Colombia security services to this mission cannot be overstated, 
significant challenges remain. Chief among them is that drug seizures 
are simply not keeping pace with the explosion in coca cultivation, 
which must be addressed with the same vigor as the interdiction 
mission.
    Colombian leadership must find a way to implement a robust forced 
manual eradication effort to create a disincentive to coca cultivation 
and an incentive to participation in the Government's crop substitution 
effort. Making manual eradication work includes overcoming the 
persistent social protests that disrupt forced eradication operations. 
Without a permanent solution to the social protest issue, forced 
eradication efforts are unlikely to have a significant effect on coca 
cultivation levels in 2017. In 2016, 675 attempted eradication 
operations were cancelled in the field due to restrictive rules of 
engagement that prevented security forces from engaging protestors. In 
2017, the protests continue. On March 28, the Ministry of Defense-led 
CEO in Tumaco launched a successful eradication operation along the 
border with Ecuador. To date, approximately 6,000 hectares have been 
eradicated. However, the operation has been marred by social protests 
and violence, resulting in the injury of two police officers and the 
death of a third. The security forces must be empowered to eradicate in 
national parks, indigenous areas, and the no-fly zones around the FARC 
disarmament zones, where coca cultivation is at industrial levels. 
Additionally, proper military-civilian coordination continues to be 
weak, and the proper financial resources to implement the CEO concept 
are still inadequate.
    To be successful, the Colombian Government's voluntary eradication 
and crop substitution program needs adequate financial and human 
resources as well as a clear implementation plan to succeed. Currently 
these are lacking. We are strongly encouraging the Colombian Government 
to limit the number of voluntary eradication agreements they negotiate 
and sign to make implementation feasible. Voluntary eradication 
agreements must also have expiration dates so the security forces can 
forcibly eradicate in farms where coca growing communities fail to meet 
their obligations.
    In addition to eradication and crop substitution efforts, we have 
also called on the Colombians to preserve the use of extradition as a 
law enforcement tool, to ensure narcotraffickers do not fraudulently 
use the peace accord's transitional justice measures to avoid 
extradition.
    I visited Colombia twice in the past several months, once in March 
and again in June, to discuss these challenges and outline a plan for 
moving forward together. First, the U.S. Ambassador to Colombia, Kevin 
Whitaker, and I led a U.S. Government delegation for a Binational 
Technical Working Group (BTWG) on counternarcotics in March. The 
delegation met with senior Government of Colombia officials and 
conveyed our government's continued concerns regarding the worsening 
narcotics situation in Colombia. We stressed the urgent need to 
operationalize a whole-of-government strategy to counternarcotics and 
rural development in strategic areas of concern. Subsequent to the 
BTWG, we also met with President Santos and then incoming-Vice 
President Oscar Naranjo to reinforce these messages. Counternarcotics 
was a key topic of discussion during President Santos' May 18 meeting 
with meeting with President Trump, who underscored our deep and growing 
concern and urged immediate action.
    On June 14, Vice President (VP) Naranjo convened a day-long 
strategic drug policy workshop bringing together a dozen Colombian 
agencies for a comprehensive assessment of their collective 
counternarcotics efforts and to lay the groundwork for a ``unified 
vision'' to address illicit crops. During the event, which was notable 
for its participation, structure, and candid conversation, VP Naranjo 
said disparate counternarcotics strategies had failed because they 
focused solely on interdiction and eradication programs, and never 
addressed structural problems causing families to replant coca. He 
repeatedly stressed Colombia needed a paradigm shift to promote an 
integrated, whole-of-government approach. We could not agree more.
    While concerns persist, my June visit to Colombia with my 
colleagues on The Interdiction Committee revealed a clear improvement 
in the direction of Colombia's counternarcotics efforts, and this can 
almost certainly be attributed to the positive effects of Vice 
President Naranjo's meeting earlier that month. The most encouraging 
development during our visit was the clear signal that Colombia is 
readying its various ministries to launch a second CEO in Antioquia.
    The Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs (INL) continues to assist the Government of 
Colombia with its interdiction and coca eradication operations; 
strengthening the country's rule of law capacity to counter money 
laundering and prosecute and convict organized criminals; and 
supporting the expansion of government presence to rural areas to 
prevent organized criminal groups from gaining a foothold where state 
presence is weak. As was the case with Plan Colombia, U.S. assistance 
to support implementation of Colombia's counternarcotics strategy is a 
fraction of Colombia's overall investment.
    The dramatic increase in coca cultivation and cocaine production in 
Colombia is deeply concerning, and we remain committed to helping the 
Colombian Government deal with this challenge. The stakes could not be 
higher. Not only will failure to counter drugs jeopardize the hard won 
gains under Plan Colombia, but emboldened organized criminal groups and 
huge inflows of illicit earnings will erode citizen security, increase 
corruption, foment increased illegal immigration, and destabilize 
neighboring states and Colombia itself, thus undermining the legacy and 
legitimacy of the peace accord. The Colombian Government has been our 
steadfast partner in the fight against crime and narcotics since before 
the start of Plan Colombia in 1999. Achieving our shared goals will not 
be easy, nor quick, but we are confident that we will continue to 
effectively work together to tackle the considerable challenges before 
us.


    Senator Rubio. Thank you.
    Secretary Palmieri?

 STATEMENT OF FRANCISCO PALMIERI, ACTING ASSISTANT SECRETARY, 
BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Palmieri. Chairman Rubio, Ranking Member Menendez, 
members of the subcommittee, thank you for convening this 
hearing to discuss Colombia. Colombia is a strategic U.S. 
partner at a critical time who works with us to advance U.S. 
national security and economic prosperity interests in the 
hemisphere and around the world. We are working with the 
Colombian Government on its efforts to implement its peace 
accord with the FARC.
    Colombia is one of our most willing and capable partners in 
the region. A Colombia at peace will strengthen its ability to 
support mutual priorities, including promoting a stable and 
democratic region and countering narcotics trafficking, 
transnational crime, terrorism, and illegal migration.
    As conditions deteriorate in Venezuela, further instability 
has the potential for tremendous negative impact on its 
neighbors and the region. The situation in Venezuela carries 
special risks for Colombia. Every day, thousands of Venezuelans 
cross the border and return home after purchasing basic goods 
in Colombia. Colombia has joined the United States and other 
OAS member states in issuing statements offering to assist the 
people of Venezuela in addressing their political, economic, 
and humanitarian crises. We will continue to work with Colombia 
and other regional partners to promote a peaceful, democratic 
resolution to Venezuela's challenges.
    As you all know, the Colombian Government finalized a peace 
accord with the FARC in November 2016. Colombia has made some 
important progress implementing the accord. Nearly 7,000 FARC 
rebels peacefully relocated to 26 U.N.-monitored disarmament 
zones. U.N. officials confirmed the rebels completed the 
surrender of the fighters' individual weapons June 27, a 
significant step in the parties' ongoing efforts to implement 
the accord. The parties agreed to decommission more than 900 
weapons caches outside the zones by September 1. The Colombian 
Government passed key peace accord-implementing legislation, 
including an amnesty law, a law on political participation, and 
laws to set up the Special Jurisdiction for Peace. The SJP is 
designed to hold accountable those most responsible for war 
crimes, crimes against humanity, and gross human rights 
violations.
    Colombia is investing heavily in its own future and will 
cover 90 percent of the peace accord implementation costs. Our 
critical contribution will provide U.S. expertise to enhance 
the implementation efforts. Our programming in Colombia focuses 
assistance on security, the expansion of state institutions and 
presence in former rebel areas, on economic development and 
humanitarian demining, and justice services and other support 
for victims.
    We also continue to provide bilateral assistance to support 
Colombia's efforts to dismantle illegal armed groups which have 
been responsible for violence against civil society activists. 
We are coordinating with the Colombian Government to see how 
our support can be most helpful.
    Our programs will also expand humanitarian demining 
operations across the country, supporting the U.S.-Norway-led 
Global Demining Initiative for Colombia, to facilitate rural 
economic development, land restitution, and victims' 
reparations.
    We are also making progress in promoting human rights in 
Colombia, though there are significant challenges. We are 
deeply concerned by reports of increased killings and threats 
against human rights defenders and social activists. It is 
essential to quickly and thoroughly investigate and prosecute 
those responsible for these crimes. We welcome Colombia's 
recent advances to prioritize investigations of killings and 
threats against human rights defenders and civil society 
activists. Concrete results, including convictions, are 
critical to prevent future violence.
    The support of the U.S. Congress has been instrumental to 
everything the United States has achieved with Colombia, and 
your support will be needed now more than ever as Colombia 
attempts to find a real and lasting peace.
    Chairman Rubio, Ranking Member Menendez, members of the 
subcommittee, thank you for the opportunity to meet with you 
today and for your continuing commitment to helping advance 
U.S. national security and economic prosperity in Colombia and 
across this entire hemisphere.
    I look forward to your questions.
    [Mr. Palmieri's prepared statement follows:]


                Prepared Statement of Francisco Palmieri

    Chairman Rubio, Ranking Member Menendez, members of the 
subcommittee, thank you for convening this hearing to discuss Colombia. 
Colombia is a strategic U.S. partner at a critical moment in its 
history. We are working with the Colombian Government on their efforts 
to implement its peace accord with the FARC. Colombia is one of our 
most willing and capable partners in the region. A Colombia at peace 
will strengthen its ability to support mutual priorities, including 
promoting a stable and democratic region and countering narcotics 
trafficking, transnational crime, terrorism, and irregular migration.
    As conditions deteriorate in Venezuela, further instability has the 
potential for tremendous negative impact on its neighbors and the 
region. The situation in Venezuela carries special risks for Colombia. 
Every day, thousands of Venezuelans cross the border and return home 
after purchasing basic goods in Colombia. Colombia has joined the 
United States and other OAS member states in issuing statements 
offering to assist the people of Venezuela in addressing their 
political, economic, and humanitarian crises. We will continue to work 
with Colombia and other regional partners to promote a peaceful, 
democratic resolution to Venezuela's challenges.
    As you all know, the Colombian Government finalized a peace accord 
with the FARC in November 2016. Colombia has made some important 
progress implementing the accord. Nearly 7,000 FARC rebels peacefully 
relocated to 26 U.N.-monitored disarmament zones. U.N. officials 
confirmed the rebels completed the surrender of fighters' individual 
weapons June 27, a significant step in the parties' ongoing efforts to 
implement the accord. The parties agreed to decommission more than 900 
weapons caches outside the zones by September 1. The Colombian 
Government passed key peace accord implementing legislation, including 
an amnesty law, a law on political participation, and laws to set up 
the Special Jurisdiction for Peace (SJP). The SJP is designed to hold 
accountable those most responsible for war crimes, crimes against 
humanity, and gross human rights violations.
    The mandate for the U.N. Security Council-authorized special 
political mission to oversee the bilateral ceasefire and the FARC's 
disarmament expires in September. The U.N. Security Council unanimously 
approved a resolution July 10 authorizing a follow-on U.N. special 
political mission, which will begin September 26 and focus on 
monitoring and verifying implementation of security guarantees and 
FARC's reintegration into Colombian society.
    Colombia is investing heavily in its own future and will cover 90 
percent of the peace accord implementation costs. Our critical 
contribution will be providing U.S. expertise to enhance Colombia's own 
implementation efforts. Our programming in Colombia thus focuses U.S. 
assistance on: (1) security, including counternarcotics efforts and 
reintegration of ex-combatants; (2) the expansion of state institutions 
and presence in former rebel areas, including rural economic 
development and humanitarian demining; and (3) justice services and 
other support for victims.
    We also continue to provide bilateral assistance to support 
Colombia's efforts to dismantle illegal armed groups, which have been 
responsible for violence against civil society activists. We are 
coordinating with the Colombian Government to see how our support would 
be most helpful. A stronger, stable Colombia that protects human rights 
is in the U.S. interest, and we are committed to supporting Colombia's 
continuing efforts to strengthen the rule of law, promote transparency 
and accountability, combat crime, and increase respect for human 
rights.
    We are monitoring risks to peace plan implementation and working to 
help the Colombians mitigate them. The surge in coca cultivation and 
cocaine production is the greatest threat to peace, but also is a 
threat to the United States and the region. Record levels of coca 
cultivation and production strengthen illegal armed groups operating in 
Colombia, undermine rural security, and corrupt Colombia's institutions 
down to the local level. As President Trump told President Santos 
during his visit to Washington in May, the drug epidemic is poisoning 
too many American lives and more concentrated efforts are critical in 
order to reverse these alarming trends.
    On counternarcotics cooperation, we are working together to 
implement a whole-of-government plan, first in the critical drug-
producing region of Tumaco and then in other areas, to help reduce 
cocaine production. Our efforts over the last 15 years have proven that 
attacking cartel organizations, interdiction, and eradication 
operations should be front and center in their efforts and must be 
linked with alternative development to make a durable effect on 
communities affected by the drug trade. Unity of effort across 
Colombia's security and civilian agencies and continued cooperation 
with the United States will be critical to successfully combat narco-
trafficking and solidifying the peace.
    Our programs will also expand humanitarian demining operations 
across the country--supporting the U.S.-Norway-led Global Demining 
Initiative for Colombia--to facilitate rural economic development, land 
restitution, and victims' reparations. In addition, we are supporting 
the Government's work to restore more than 84,516 hectares of land to 
11,401 displaced persons, while USAID assists the development of licit 
economic opportunities and alternatives to coca with programs for small 
businesses.
    We are also making progress in promoting human rights in Colombia, 
though there are significant challenges. We are deeply concerned by 
reports of increased killings and threats against human rights 
defenders and social activists. Increased attacks on civil society 
activists are also a threat to peace. It is essential to quickly and 
thoroughly investigate and prosecute those responsible for these 
crimes. We welcome Colombia's recent advances to prioritize 
investigations of killings and threats against human rights defenders 
and civil society activists. Concrete results, including convictions, 
are critical to prevent future violence.
    The investments we have made in Colombia over close to two 
decades--whether through foreign assistance, messages of bipartisan 
political support in Washington, or time invested building relations 
with the Colombian Government and people--have benefited the United 
States in security, economic, and political gains. The support of the 
U.S. Congress has been instrumental to everything the United States has 
achieved with Colombia, and your support will be needed now more than 
ever as Colombia attempts to find a real and lasting peace.
    Chairman Rubio, Ranking Member Menendez, members of the 
subcommittee, thank you for the opportunity to meet with you today and 
for your continuing commitment to helping advance U.S. national 
security and economic prosperity in Colombia.
    I look forward to your questions.


    Senator Rubio. We thank you both for being here.
    Secretary Palmieri, let me begin with this, and you alluded 
to it in your opening statement, about how the instability in 
the neighboring nation of Venezuela has an impact on Colombia. 
As you know, this Sunday there was an election or a purported 
election in Venezuela that sought to replace the National 
Assembly that had been democratically elected by the people 
with this new Constituent Assembly.
    Is it the position of the Department of State that the 
election on Sunday and its results are legitimate?
    Mr. Palmieri. The election on Sunday was a flawed attempt 
to undermine democratic institutions in Venezuela, and we 
support the democratically elected National Assembly in its 
efforts to promote an enduring peaceful solution to the crises 
in Venezuela.
    Senator Rubio. So just to be clear, is it the position of 
the administration that the vote that occurred on Sunday is 
illegitimate?
    Mr. Palmieri. The vote--the election was a flawed election 
that did not follow the constitutional precepts for such an 
election, and as such the results are in question. Yes, sir.
    Senator Rubio. Okay. Let me try it this way. [Laughter.]
    Senator Rubio. The election on Sunday is going to put in 
place as early as today a Constituent Assembly which has 
elected, according to them, 535 people. They are going to wipe 
out the National Assembly, which you have just said is 
legitimate, and they are going to replace it with this 
Constituent Assembly of 535 supporters of Maduro. Is that 
Constituent Assembly legitimate?
    Mr. Palmieri. The only legitimately elected, democratically 
elected representatives of the Venezuelan people is the 
National Assembly. The Constituent Assembly is a flawed process 
that undermines any progress toward an enduring peaceful 
solution to the crisis there.
    Senator Rubio. I understand that. But----
    Mr. Palmieri. We do not recognize the seating of that 
Constituent Assembly.
    Senator Rubio. So without using the term illegitimate,'' if 
you say that the only legitimate elected is the National 
Assembly, and you do not recognize the Constituent Assembly, I 
understand you are limited by what you have been authorized to 
say because you speak for the administration and the State 
Department, you do not make these decisions, although you 
certainly have input, but from that I take it that we do not 
recognize the Constituent Assembly as a legitimate 
representative of the people.
    Mr. Palmieri. It is a flawed process. It will not 
contribute to----
    Senator Rubio. It is not the process. I know the process 
was flawed. It is the outcome. It is this new Constituent 
Assembly. Are they a legitimate--there cannot be a legitimate 
National Assembly and a legitimate Constituent Assembly. They 
are in conflict with one another. If the National Assembly is 
the only legitimate entity, the Constituent Assembly, by 
definition, is illegitimate.
    Mr. Palmieri. I take your point, Senator. Yes, sir.
    Senator Rubio. So you are not authorized today to say that 
they are illegitimate. You are just authorized to say that the 
process was flawed and the National Assembly is legitimate.
    Mr. Palmieri. We will not recognize the seating of the 
Constituent Assembly and its usurpation of the powers of the 
duly elected National Assembly.
    Senator Rubio. The reason why I am drilling down on this is 
because I know this issue is about Colombia, but Venezuela has 
a direct impact on Colombia. I think Secretary Brownfield would 
absolutely agree with that.
    There is an article and an interview that was given by Mr. 
Fitzpatrick, the manager of South America in the State 
Department. I do not know if that is the right title, but that 
is what is said here. It was given to FAFE, which is a Spanish-
speaking outlet from Spain, and it basically said that ``while 
the United States believes that Venezuela is a dictatorship, it 
still considers the Government of Nicolas Maduro to be 
legitimate and would not recognize a possible parallel 
executive formed by the opposition.''
    So the problem that we have with that statement is if the 
Constituent Assembly is, in essence, according to Maduro, the 
new government, it would be the equivalent of an administration 
in the United States holding a vote to wipe out the existence 
of Congress and replacing Congress with a whole new set of 
people, all loyal to the executive.
    So if the National Assembly is legitimate, the 
Constitutional Assembly we do not recognize is now the new form 
of government, and they are going to move forward now to 
rewrite the constitution, how can we argue or how can the 
position be that Nicolas Maduro is legitimate even if the 
Government that he has now put in place is one we do not 
recognize?
    Mr. Palmieri. I am not sure I understand the question, sir.
    Senator Rubio. Maduro argues there is a new government in 
Venezuela, but the existing government no longer exists. A new 
government is taking over through the Constituent Assembly, and 
we do not recognize it. That is what you just said. So how can 
we argue that Maduro's Government is legitimate if Maduro 
himself is saying the Government he has put in place is one 
that you say you do not recognize?
    Mr. Palmieri. It is clear that with this effort to seat a 
Constituent Assembly, the Maduro Government is proceeding to 
greater and greater authoritarian rule in the country. The 
seating of--the attempted seating of a Constituent Assembly 
will be met with swift and strong action by this administration 
to ensure that the democratically elected institutions in 
Venezuela are protected, including the role of the National 
Assembly.
    Senator Rubio. Well, I am going to turn it over to the 
Ranking Member, but here is my advice. You have a new 
government in Venezuela. As early as today, they are going to 
nullify completely the existence of a National Assembly, which 
we recognize as legitimate, correct?
    Mr. Palmieri. Yes.
    Senator Rubio. They are going to basically say you are no 
longer the National Assembly, you no longer exist. We have this 
new government under a Constitutional Assembly. We do not 
recognize them. As early as some point today that is going to 
be, according to Maduro, the new government of Venezuela. That 
was the whole purpose of this vote.
    I do not know how we are going to be able to continue to 
argue that we recognize the legitimacy of the Maduro Government 
if the Maduro Government, as early as today, is going to 
formally announce that it is something we do not recognize. So 
I think that issue needs to be flushed out here pretty quickly 
because the Constituent Assembly is now the new government of 
Venezuela, according to Maduro, and we do not recognize it. So 
if we do not recognize it, how can we argue that it is 
legitimate? I think that is a point that the State Department 
is going to have to clarify here probably in the next few 
hours, if not later today, when they finally try to seat these 
people.
    The Ranking Member?
    Senator Menendez. Thank you, Mr. Chairman. I do echo some 
of your concerns.
    Who is Mr. Fitzpatrick? What is his role at the State 
Department?
    Mr. Palmieri. Michael Fitzpatrick is the Deputy Assistant 
Secretary for South America.
    Senator Menendez. Deputy Assistant Secretary. Is he acting 
or is he actually the Deputy Assistant Secretary?
    Mr. Palmieri. He is the Deputy Assistant Secretary, sir.
    Senator Menendez. For South America. So let me just say 
that from my perspective, I think Ambassador Haley gets it 
right. She called the Maduro Government illegitimate, and it is 
illegitimate. A Constituent Assembly that, at the end of the 
day, we do not recognize that is flawed is not only flawed, it 
is illegitimate.
    One of our challenges in foreign policy, whether it be in 
Venezuela or elsewhere in the world, is sometimes we just will 
not call it what it is. An invasion is an invasion of Ukraine. 
It is not usurpation, it is an invasion. And the illegitimacy 
of a dictatorship, which now the administration has recognized 
that the Maduro Government is a dictatorship, something I 
applaud, is an illegitimate government.
    So when Ambassador Haley says Maduro's sham election is 
another step toward dictatorship, we will not accept an 
illegitimate government, I think that speaks volumes about what 
we should be doing, and that is why I applaud her work.
    Let me ask you--and this was important because the 
potential overflow into Colombia is destabilizing, as well as 
for the region. Do you believe--and you can both give me yes or 
no answers to this. Do you believe it is in the United States' 
interest to support democracies that promote the rule of law 
and justice?
    Mr. Palmieri. Yes, sir.
    Mr. Brownfield. As do I, Senator.
    Senator Menendez. Do you believe it is in our interest to 
fund foreign assistance programs that support democracy and 
human rights programming?
    Mr. Palmieri. Yes, sir.
    Mr. Brownfield. As do I.
    Senator Menendez. Has our engagement with Colombia in these 
priorities produced positive results that directly promote the 
security and prosperity of the United States?
    Mr. Palmieri. Yes, it has, sir.
    Mr. Brownfield. Yes.
    Senator Menendez. Okay. Thank you. We don't get 
administration witnesses that often, so I just want to create 
certain templates here.
    Ambassador Brownfield, let me ask you, can you give us a 
better update on efforts to confront Colombian criminal 
organizations, the ELN or the Bandas Criminales, as they step 
into areas of coca cultivation previously controlled by the 
FARC? And can you speak, either you or Secretary Palmieri, can 
you speak to that under the terms of the peace accord FARC 
members who committed lesser crimes are eligible for amnesty 
under certain conditions, and the Colombian Government has 
signaled it will not comply with extradition requests? However, 
many FARC members are wanted in the United States for serious 
crimes related to murder, kidnapping, and drug trafficking. Can 
you discuss the ongoing efforts with the Colombian Government 
on extradition requests? I understand, for example, the embassy 
may have recently raised the case of Julio Enrique Moreno. So 
speak to those two things for me, I guess on the first part 
Secretary Brownfield, and then Mr. Palmieri on the second.
    Mr. Brownfield. In fact, I will take a crack at both of 
them----
    Senator Menendez. Fine.
    Mr. Brownfield [continuing]. Senator Menendez, and then let 
Paco add on as he thinks best.
    What is their approach in terms of taking down the drug 
trafficking organizations and ELN, which also is a drug 
trafficking organization, in the aftermath of the peace accord? 
They have developed a national strategy, which is called the 
SAO Strategy, the Operational Strategic Center Strategy. The 
strategy defines four principal drug-producing zones in 
Colombia, in the southwest around Narino, in the upper east 
around Upper Antioquia, in the northeast near the Venezuelan 
border, and in the east center in the province of San Jose del 
Guaviare.
    The concept is to do a whole-of-government comprehensive 
approach that includes both voluntary and forced eradication, 
government support, and police and military presence to ensure 
government control in those zones. It is not a bad strategy. It 
is, however, going at it piece by piece. They started in the 
southwest. They were very heavy on voluntary, not so heavy on 
involuntary, and it is so far producing, as I suggested in my 
statement, better results than we saw in 2016, but they are 
going to have a tough time meeting their own self-announced 
objectives for 2017.
    Senator Menendez. Better results than 2016 is a low 
threshold.
    Mr. Brownfield. It is. It is setting the bar extremely low. 
I could not agree with you more in that regard. They have set 
their objective of 50,000 hectares, about 120,000 acres, for 
involuntary eradication in 2017. I would be pleased if they 
made that result. I am not certain that they are going to.
    Amnesty and extradition. You have hit an issue that causes 
us collectively, me personally, a great deal of frustration, 
and let me use the specific case that you referred to. It was a 
case that I knew back in my day, in 2009, when I was in 
Colombia, as the Padron case. Padron was a U.S. citizen who was 
living in Panama. He was kidnapped for revenue, basically for 
ransom, by an individual who was part of the FARC 57 Front, but 
was not operating in Colombia. He was operating in Panama. 
There is no evidence that he had FARC command or authority 
direction to perform this kidnapping. He earned a substantial 
amount of money. I have heard a figure of up to $2 million from 
this kidnapping, and I have seen no evidence that would suggest 
he shared this with the FARC.
    Okay. He comes into the custody of the Colombian national 
police earlier in this year. He goes through the process. The 
argument that we made, somewhat emphatically, is this gent is 
surely outside of the purview of the amnesty that applies to 
FARC members who conduct or commit crimes while operating as 
active FARC members. He was outside of Colombia. He did it for 
personal gain. He did it against a foreign citizen. There was 
obviously an active request for the extradition of that 
individual.
    The judicial process concluded that, in fact, he was 
covered.
    This is bad news because during my two trips to Colombia 
earlier this year, the agreement that I had hoped we had 
reached was that we would try to keep individuals outside of 
the amnesty. In other words, the objective, if there is a means 
of saying this individual should not be covered by the peace 
accord and its amnesty, that is what we should aspire to, to 
have as few covered rather than as many to keep extradition an 
effective tool.
    We are not there yet. We need to work more on this issue. 
It is not a simple issue. At the end of the day, it was the 
Supreme Court who made this decision, but it is an excellent 
example of the problems that we still have.
    Senator Menendez. Thank you.
    Senator Rubio. Thank you to the Ranking Member.
    Senator Shaheen, if you would just indulge me for a moment, 
I want to put this on the record because we were talking about 
this.
    There are now 40 democratic countries that have announced 
they do not recognize the Constituent Assembly in Venezuela. 
They are as follows: Canada, Argentina, Brazil, Chile, 
Colombia, who we are talking about today, Costa Rica, Mexico, 
Panama, Peru, Paraguay and Austria, Belgium, Bulgaria, Croatia, 
Denmark, Slovakia, Slovenia, Estonia, Finland, France, Greece, 
Holland, Hungary, Ireland, Northern Ireland, Italy, Lithuania, 
Luxembourg, Malta, Poland, Portugal, the Czech Republic, 
England, Romania, Switzerland, Sweden, Spain, Norway. I may 
have missed a couple. This is a growing list. We are not alone 
in that calculation.
    Senator Shaheen?
    Senator Shaheen. Well, thank you, Mr. Chairman, and thank 
you both for being here and for your service to the country.
    Secretary Brownfield, I want to go back to your discussion 
about what is happening with coca production and with the drug 
trade in Colombia. A number of us senators had a chance to meet 
with President Santos when he was here earlier this year, and 
we, I think, uniformly expressed concern about increased 
production, coca production in 2016 and 2015 and what that 
meant. He expressed a continued commitment to try and address 
that.
    For me and for my home state of New Hampshire, this is a 
very personal issue. We have the second-highest overdose death 
rates in the country. So whatever we can do to help interdict 
those drugs, to help reduce the production of illegal drugs, is 
going to be very important to us.
    As I am sure you all heard yesterday, the President's 
commission on the opioid epidemic recommended declaring a 
national health emergency around the opioid epidemic, which I 
fully support.
    So what more can be done? You described that six-point plan 
that sounds good in the abstract, but it is hard for me to see 
how that is really going to have much impact. So what more can 
we do to encourage anti-drug coca production efforts in 
Colombia, and what do you see being done between Colombia, 
Mexico, and the United States to address drugs coming into this 
country?
    Mr. Brownfield. Senator, I am in the uncomfortable position 
of agreeing with everything that you have said.
    Senator Shaheen. I am sure you do.
    Mr. Brownfield. And actually wanting to reinforce some of 
your points.
    First, your meetings and discussions with Juan Manuel 
Santos, the President of Colombia, he is a gentleman that I 
respect enormously. I have known him since I served as 
ambassador and he was the minister of defense in 2007 to 2009. 
If he were not the president, I would say that we were friends. 
You are not allowed to be friends unless you are another 
president with a president, but that is the degree of respect I 
have for President Santos.
    He has a difficult situation to deal with. He is trying to 
bring peace and end a 50-year armed conflict that has taken 
tens of thousands of lives in his country, and we have to 
respect that and honor that. And he believes that he needs to 
address the drug issue in a way that is not going to complicate 
his peace objectives.
    Fine. He has come up with some ideas, more voluntary 
eradication, more alternative development with assistance, 
literally economic and social development assistance by the 
Government to the coca growers, and I think those are noble 
objectives.
    The problem is 40 years of counter-narcotics efforts around 
the world have taught me, at least, that you cannot use just a 
single element in a formula to produce the results. We have 
tried that in the past. We have tried to just do a lot of 
eradication and that will cut off all drug importations into 
the United States. It did not work in the 1980s. It is not 
going to work today.
    We have tried crop substitution. We have tried alternative 
development. We have tried comprehensive development. If that 
is the only thing we are offering, the campesino takes the 
assistance and continues to grow coca or opium poppy. There has 
to be a hard edge to the policy as well.
    So at the end of the day, our problem is maintaining a 
balanced approach, heavy work by the police who are going to 
say you have 30 days to eradicate your own coca or we are going 
to come in and do it for you, and if you want to get the money 
from the Government, you had blipping well better eradicate 
now. That is the nature of the argument that we are having.
    You have put your finger, second, on what is today the 
worst drug crisis that affects and has affected the United 
States for at least 40 years, since the crack cocaine crisis of 
the 1980s, and we are all old enough, more or less, to remember 
that and what the impact on us was at that particular point in 
time.
    Now, the good news, I guess, from the Colombia perspective 
is that very little of that is coming out of Colombia. Very 
little heroin is now being produced in Colombia, as you well 
know because you have had these conversations a number of times 
with my colleagues in the counter-narcotics community. The 
overwhelming majority of heroin that is consumed in the United 
States comes from Mexico, a different problem set, but you put 
your finger with your third point on how to work that issue 
trilaterally--U.S., Colombia, Mexico.
    The truth is we are kind of three of the four or five major 
countries in the Western hemisphere that are working well 
together on certain issues. We are working well together in 
Central America in terms of exporting security capabilities and 
training and law enforcement skills into Central America. We 
are working more cooperatively in terms of how to address 
maritime and aerial trafficking that goes from Colombia, 
frankly a lot of it via Venezuela, up, over, through or around 
Central America and into Mexico. We are making progress there, 
Senator.
    But I am going to close my answer by saying something that 
I say all the time because I am an old fart now and I am 
allowed to say this sort of thing. I have been in this business 
for 39 years. I realize and I have learned that it takes us 
many years to get into these messes and these crises, and it is 
going to take us a good number of years to get out of them. 
Hold me accountable for long-term objectives, but at the end of 
the day I am not going to be able to produce a result or an 
outcome for you by lunch today or even lunch tomorrow.
    Senator Shaheen. Well, my time is up, but I certainly 
appreciate that. I also think the point that you make that 
there is not a silver bullet answer to this problem, just as we 
address the opioid epidemic in this country there is not one 
answer, it takes a variety of approaches and a real 
collaborative effort, and we need to continue that and reward 
good behavior when it occurs and punish bad behavior where it 
occurs. So, thank you very much.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you. And just for the record, I am 46. 
I do remember it. Senator Gardner is only 42, so you may have 
to talk to him about the crack epidemic.
    Mr. Brownfield. I was making eye contact with no one, Mr. 
Chairman, absolutely no one. [Laughter.]
    Senator Rubio. I remember when there were Saturday morning 
cartoons. [Laughter.]
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to the witnesses for being here today.
    I think several months ago, I guess the last Congress, 
after the retirement of General Kelly from SOUTHCOM, he came to 
our conference and addressed the conference about his 
experience leading SOUTHCOM. Senator Rubio was there, and I do 
not know if he remembers the exact number that General Kelly 
used, but in this conversation with the conference General 
Kelly said it was his experience at SOUTHCOM that we had eyes 
on 90 percent. Again, 90 percent may or may not have been the 
number, but a very high percentage of the drug flow from South 
Central America to the United States. It was just a resource 
issue and how to deal with it.
    Could you expound on that, or maybe whether you agree or 
disagree with that? Do we have eyes on that high of a 
percentage of what is happening, what is coming in, and it is 
just a resource issue?
    Mr. Brownfield. Senator, I learned never to disagree with 
General and then Secretary and now Chief of Staff Kelly. He is 
a very smart fellow. I presume that the point he was making--
and if this was his point, I agree with it absolutely and 
completely--is that we have a much better picture and a great 
intelligence understanding of what is moving, how it is moving, 
where it is moving, and when it is moving than we have assets 
to address that. In other words, General Kelly has said his 
successor, Admiral Tidd, has said the commander of the Joint 
Interagency Task Force South, headquartered in Key West, has 
said a number of times we have more targets out there that we 
could actually take down than we have assets available to take 
them down.
    The point that they are making and that General Kelly has 
made in the past is that if he had more aircraft, boats, 
cutters, ships, and for that matter ground-based assets, as 
well as aviation assets, he would be able to have a much 
greater impact in terms of what is moving through. That, I 
think, is the idea he was trying to transmit, and I agree with 
that completely.
    Senator Gardner. So assets, boats, ships, cutters, what 
does that cost and what kind of a percentage dent would it 
make?
    Mr. Brownfield. Yep, a fair question. I mean, I am not 
going to give you a cost estimate. At the end of the day, that 
would come out of General Kelly's former department in terms of 
that estimate, as well as the Department of Defense in terms of 
what it would cost. You know as well as I do it costs a great 
deal. His position over the years had been that there are 
cheaper ways to do this. You can, for example, use assets that 
are otherwise performing other missions, such as DOD or 
military missions, and while they are transiting a particular 
zone, or while they are engaged in training, use them for these 
purposes so you get multiple value out of the same asset, and I 
agree with that as well.
    My own team at INO, we maintained the State Department's 
air wing, and I have to tell you, I have to tell each and every 
one of you senators that what we have in our inventory is 
aircraft that have first been processed through the armed 
forces and discharged because they are no longer of interest to 
them, provided to the National Guard, who used them for as long 
as they wished, and when they no longer believe they have value 
we then get them.
    We are still able to use these assets. We have the largest 
number of original-issue UH-1 helicopters, I suspect in the 
entire world. They are all probably as old as I am, or at least 
approaching that. That is not particularly young, by the way, 
Senator, and we are able still to get value out of them. In 
other words, there are cheaper ways of doing it, is my point.
    Senator Gardner. The coordination that you talked about, 
the coordination of those assets that are in the region, I 
mean, is that a matter of just a bureaucratic interaction or an 
agency interaction? I mean, is it coordination that they could 
pursue on their own? Is it a matter of congressional 
legislation that we need to allow it to happen or force it to 
happen?
    Mr. Brownfield. I will offer my own views based upon off-
and-on--I guess I first came into this business in 1992 on the 
drug side, so that is 25 years of experience. It is a 
combination of several things.
    One, relative priorities. In other words, different 
departments and different agencies have their own priority 
list, and the drug issue will fit somewhere on that priority 
list.
    Second will be--and this is natural--any agency or any 
institution, including my own, wishes to be able to control its 
own assets and not be told by others what they are supposed to 
do.
    Third is an authorities issue. And I have learned that when 
people do not want to do certain things, they will find that it 
is not within their legal authorities in order to do it. That 
third point eventually, I guess, would be a congressional issue 
if we want to get there.
    But my own view is it is a coordination issue, and it is a 
matter of making the decision that we will use the assets that 
we have in the most efficient and effective manner. That is one 
opinion.
    Senator Gardner. If the Chairman would allow me to ask one 
final question, you mentioned Mexico in your previous answer to 
Senator Shaheen. Are the reforms through the judiciary in 
Mexico making a difference in how they are able to prosecute 
and enforce drug narcotic issues?
    Mr. Brownfield. I will let the esteemed Dr. Palmieri have 
his own opinion on this if he wishes. My own view, Senator, 
would be it is a bit--it is still early to say. The new system 
has come into play in virtually all of the states. And 
remember, like in the United States, 90 percent of all law 
enforcement and justice is performed at the state level in the 
united Mexican states. So it has come online.
    The long-term objective, as you know, is to have a much 
more effective and efficient system that processes cases in a 
matter of weeks or, at most, months that these days take years 
and years to process.
    When we are in a position to see those results and that 
outcome, I think the answer to your question is going to be 
yes, but I think they are still in the early stages, and I am 
not yet prepared to say that it is having the impact that we 
expect.
    Mr. Palmieri. I would agree entirely that it is in the 
early stages of implementation, and the proof would be in the 
effectiveness of that implementation and the adoption of the 
new reforms so that there is a more efficient and effective 
judicial process.
    Senator Menendez [presiding]. Senator Kaine?
    Senator Kaine. Thank you to the witnesses, to my colleagues 
on the committee. My colleagues have asked many of the 
questions I wanted to. I want to focus on one area that we have 
not talked about enough in my view, and that is as we talk 
about the way forward in the Colombia peace process, I was 
struck visiting Colombia in February of 2015. President Santos 
at that point and some of his colleagues said to me it will be 
easier to stop the war than to win the peace, and the cessation 
of active war leaves much to be done.
    We focused on the narcotics eradication aspect of the 
current challenge that they have, but as they described the 
challenge at that time to me, the decades-long civil war left 
some parts of the country sort of untouched by government 
services, under-invested in economically, poor infrastructure. 
So part of this winning the peace was not just the eradication 
of narcotics, but it was going into parts of the country that 
really had not seen a functioning civil government and building 
that in those regions of the country.
    Talk to me a little bit, each of you, about how you view 
the Colombian Government's effort to tackle that part of the 
challenge. And I know it is related to the eradication issue 
because some of the substitution, et cetera, is about economic 
development. But talk about these other aspects of building out 
civil government in the formerly FARC-controlled areas of the 
country.
    Mr. Palmieri. I think the Colombian Government has made 
that a priority as it begins to implement the peace accord. 
They understand that they need to reestablish government 
services and government presence in these areas to ensure that 
the peace accord is effectively implemented.
    They have a plan. They are putting resources to it. U.S. 
assistance can complement those efforts, and I think that is 
exactly right in addressing the socioeconomic factors as a part 
of a successful implementation of the peace accord. It will be 
critical.
    Senator Kaine. Ambassador Brownfield?
    Mr. Brownfield. If I could just add to that, Senator Kaine, 
I mean, I agree with the premise of your question, and I also 
agree with what President Santos has said to you, and he said 
it to me, and he said it to almost anyone who asked him: the 
solution is not just eradication. But we have known this for 30 
or 40 years.
    To be successful, a drug strategy has to address all 
elements of the problem. Now, some may be higher priority than 
others. Some may get more resources than others. But you do 
education. You do alternative development. You do eradication. 
You do laboratory takedowns. You go after the organizations. 
You do interdiction, and you eventually get at their financial 
networks and go after money laundering. You have to address all 
elements of the chain. If you leave one completely untouched, 
you will not succeed, and that is the argument that I am making 
to a certain extent.
    My concern is that if you put too much of your effort 
strictly into alternative development and offering financial 
inducements to stop growing coca, what we have learned in 
decades past is that the campesino, who is not a stupid 
individual, may be very poorly educated in a classic sense but 
knows exceptionally well what is going on around him, he will 
take the money and perhaps eradicate right near the road, but 
200 yards off the road he will continue to grow.
    There has to be the threat of eradication along with the 
alternative development. That has been my concern.
    Senator Kaine. And let me ask you one other question 
because your testimony gets at this, and I wonder if it is a 
binary choice of just yes or no. On page 2 of your written 
testimony, you talk about the voluntary eradication and crop 
substitution plan, which includes hiring technicians to 
implement granting of land title to program participants, cash 
payment for food subsidies, and employment contracts for 
infrastructure projects.
    But then you have this line: ``The United States is not 
currently supporting the Colombian Government's voluntary 
eradication and crop substitution program because the FARC is 
involved in some aspects of the program and remains designated 
as a foreign terrorist organization under several U.S. laws and 
sanctions regimes.''
    Is this a binary choice? We should not be supporting the 
alternate economic development plan at all because the FARC may 
be involved in some aspects of it, or we should regardless of 
that, or we should do it with conditions? If you were advising 
us based on your experience, what is your advice?
    Mr. Brownfield. Senator, it is not binary, it is at least 
trinary, and I will explain it in 15 seconds or less.
    We have a legal problem so long as they are listed on the 
foreign terrorist organizations list. We are prohibited by law 
from engaging with the FARC or organizations that are under the 
FARC's control and/or influence. What we are trying to do, 
because the FARC has, to a certain extent, captured the 
alternative development process through several front 
organizations which have for the first time in the history of 
Colombia organized the cocaleros, the coca growers into 
organizations, as you see in Bolivia to a considerable extent, 
in Peru to a lesser extent, that then complicates our ability 
to deal with them.
    Tranche 1 in this four-stage Colombian strategy was the 
southwest, down in Tumaco and the Province of Marino. We are 
unable to support that because the FARC has, in a sense, 
captured the alternative development part of that.
    The next step is going to be up in Antioquia. That is 
further to the north and slightly to the west, but still 
central Colombia. There we are trying to work specifically an 
arrangement whereby the Government will work directly with the 
campesinos themselves, the individual farmers, and we have told 
the Government we will support alternative development. We will 
provide ample funding, generously provided by the United States 
Congress to the Department of State and INL, and we will 
support alternative development there.
    We will then, ladies and gentlemen, have a test. We will 
see how it worked in the southwest with the FARC largely 
running the process, how it works up in Antioquia with the FARC 
out of the process, and then we will reach some conclusions, 
what works best.
    That is how I want to address your question, and I would 
hope by the end of this year we will have some quantifiable 
data that we could offer in terms of which works best.
    Senator Kaine. Excellent. Thank you.
    Thanks, Mr. Chair.
    Senator Rubio. [presiding] For the record, those 15 seconds 
took two minutes, but that is good by Senate standards. That is 
very good by Senate standards. [Laughter.]
    Senator Rubio. Senator Udall?
    Senator Udall. Thank you, Chairman Rubio. I appreciate it 
very much.
    When I visited President Santos earlier this year, he 
stressed the importance of roads as a key factor to bring 
government services to rural areas and to give rural citizens a 
way to connect to the rest of the country and the world 
economically.
    In your opinion, how important are these projects for 
sustaining peace? And if the U.S. cuts assistance, as proposed 
by the Trump administration, would this have a negative impact 
on infrastructure projects and other efforts to maintain peace 
in former FARC territories?
    Mr. Palmieri, you start.
    Mr. Palmieri. Yes, sir. Clearly, the ability to build roads 
into these areas is a part of the Colombian Government's 
efforts to enhance government presence to deliver the range of 
social services, education, health services that will win this 
population over and establish government authority in those 
regions.
    They also need to create jobs that will provide alternative 
economic means for these communities, and they have to also 
promote financial investment in these areas so they have the 
capital to create new opportunities.
    Mr. Brownfield. I would just add one thing, Senator, and 
that is--and I will be as blunt as possible--if we do not have 
an adequate and functioning road system, counter-narcotic 
strategy will not succeed for the very simple reason that the 
campesino, the farmer that we are trying to convince to stop 
growing coca and to grow something legitimate, if he cannot get 
his crop to market, he is going to go back to growing coca 
because there the buyers come and pick it up and he does not 
need to worry about roads. No roads, no successful alternative 
development. It is just that simple.
    Senator Udall. Thank you, Mr. Chairman.
    Senator Rubio. The ranking member had one question.
    Senator Menendez. Well, one comment and one question.
    I am disappointed, Secretary Brownfield, in you. When you 
said that most of us are old enough, more or less, and only 
looked at the Chairman, I thought you might have given me a 
break and----
    Mr. Brownfield. I deny that. I deny that, Senator. 
[Laughter.]
    Senator Menendez. On a serious note, Mr. Palmieri, let me 
ask you, Secretary Brownfield talked about the totality of what 
we need to do to deal with the coca production and the drug 
trafficking, and I agree with him. It is either holistic or we 
do not achieve success.
    Having said that, the part that the United States has been 
engaged with on strengthening democratic institutions, economic 
development in rural areas of Colombia, AID support for a crop 
substitution plan, that element of it, how is that working 
under the present efforts?
    Mr. Palmieri. Well, I hesitate to speak for the Agency for 
International Development, but they do have programs that are 
designed to provide this kind of complementary assistance to 
the Colombian----
    Senator Menendez. No, I am not asking you to speak for 
them, I am asking you as the Acting Assistant Secretary of the 
Western Hemisphere to make an assessment as to what that is 
doing.
    Mr. Palmieri. As implementation gets underway, we have some 
programs that historically have produced positive results in 
those three areas that you have mentioned. We are confident 
that those programs can yield additional results in these 
demobilization zones and support of the Colombian peace plan, 
the Colombian implementation of the peace plan.
    Senator Menendez. My last point is that when President 
Santos was here, I had the opportunity to be part of the 
members that met with him, and I get the difficult challenge he 
has, I get it. But by the same token, I get a sense that the 
question of coca production is sort of like a wink and a nod 
and, okay, we will deal with it, but it is not a priority as he 
deals with the rest of the implementation of the peace plan.
    And as someone who has supported Plan Colombian from my 
days as the Chairman of the Western Hemisphere in the House of 
Representatives, from the beginning of it when it was not 
popular to support assistance to Colombia at the time, and who 
has consistently maintained that support moving to the United 
States Senate, I have a problem in U.S. taxpayer money 
continuing to flow to Colombia if extradition is not going to 
be seriously dealt with in a way that the United States law 
needs to be responded to, and with coca production, if it is 
just a tertiary consideration as we move forward.
    So, you know, I am strongly supportive of our efforts to 
help Colombia, but Colombia has to be reciprocal, at least from 
my perspective, in these two issues if it wants to continue to 
have strong support from members of Congress.
    Senator Rubio. Thank you. I just have a follow-up question, 
and then I think the Ranking Member is going to go. I just want 
to keep this rolling to the extent possible, and we will start 
with that second panel. Then when he gets here, I will go vote, 
and then we will go from there. If there is somehow a pause in 
there, it will be brief.
    We are wrapped up here. I just have two quick questions for 
Secretary Brownfield.
    The first is--well, let me just ask this, because we are 
going back to Venezuela again because of the impact it has on 
Colombia. In the role that you are currently in now, the Bureau 
of International Narcotics and Law Enforcement, we have seen 
numerous arrests, extraditions, and reports about the role that 
narco-terrorism and narco-trafficking plays in the Government 
of Venezuela, and in particular high-ranking figures and the 
family members of high-ranking figures. The current vice 
president is currently sanctioned for that. We have seen 
reports in multiple publications around the world about the 
role that Carrera plays in narco-trafficking and the Cartels of 
the Sun.
    Could you describe for us the role of narco-trafficking in 
the Venezuelan Government and in those in power, and the impact 
that has on Colombia?
    Mr. Brownfield. I will, Mr. Chairman, and I will answer 
your question directly and not gloss too much over it.
    I would say to you that over the last 15 years, the 
Venezuela route has become, for a while, the preferred for the 
majority of all cocaine that was exiting Colombia exited 
through Venezuela and then was flown or shipped out of 
Venezuela en route to market, either to North America or to 
Europe. I believe in recent years more of that flow has begun 
to shift to both southwest and northern Colombia in terms of 
departing the country by maritime routes, but nevertheless a 
substantial amount still goes through Venezuela.
    Now, how does that happen? Obviously, it does not happen 
unless they have a network in Venezuela, a network of officials 
who will look the other way or support or agree, because they 
are moving tons and tons of product through Venezuela. And 
beginning in the early years of the last decade, that network 
began to penetrate to increasingly higher levels of the 
Venezuelan Government, up to the point where I would say by the 
end of the last decade there was almost no institution in 
Venezuela that was involved in security or law enforcement 
affairs that had not been penetrated to some extent by 
professional drug trafficking organizations. I believe you 
could say that 10 years ago. I believe you can say it today. I 
believe that is the basis for many of the sanctions that have 
been announced under the Drug Kingpin Act, which by definition 
requires a strong nexus to drug trafficking over the last year 
or two years here in Washington. At the end of the day, that is 
the reason--that is yet another reason why the Venezuela 
problem today is exceptionally complicated.
    Senator Rubio. So just to summarize what you have said, 
there is a substantial amount of drugs, even to this day, 
exiting Colombia and other parts that traffic through 
Venezuela. It would be impossible for that to happen without 
not just the knowledge but the in-depth cooperation of figures 
at a high level in the Venezuelan Government; correct?
    Mr. Brownfield. I would say that is true, factually true. 
Could they have done it without having penetrated to the 
highest levels? Maybe. But in my opinion, they have penetrated 
to the highest levels, making the issue moot.
    Senator Rubio. And the fact that they have penetrated to 
the highest levels was not--they did not do that as a favor, in 
essence. If, in fact, high levels of the Venezuelan Government 
have allowed this to happen, they have done so for a profit. 
They have taken their fee and they have been paid, and 
therefore if that is all true, it explains the extraordinary 
amount of wealth that has increased and accumulated in the 
hands of a handful of individuals linked to or in the 
Government.
    Mr. Brownfield. I will not give you a precise figure, Mr. 
Chairman, but I would say multiples of billions of dollars is 
what I would calculate.
    Mr. Palmieri. Mr. Chairman, in addition to the Vice 
President, the current Interior Minister also has been 
sanctioned under the Kingpin Act.
    Senator Rubio. Without going into anything we cannot talk 
about in this setting, is it fair to say that there are still 
people in or around government in Venezuela involved in this 
who have yet to be sanctioned?
    Mr. Palmieri. Yes.
    Mr. Brownfield. Yes is the correct answer.
    Senator Rubio. Okay. One last point. I have here a 
memorandum from the previous president of Colombia who, as we 
would all agree, was a key figure in the implementation of Plan 
Colombia, Alvaro Uribe Velez, who is now in the Senate in 
Colombia, and it is an extensive memo. We obviously cannot go 
through it all, but one of the claims that he makes and I have 
heard made repeatedly by others is that one of the causes of 
this increase in cocaine production in Colombia is the 
Colombian Government's unwillingness to continue eradication 
efforts.
    When you talk to President Santos, when you talk to people 
in the administration in Colombia, they tell you that this was 
because some of this was in national parks. They also say that 
it is because the people on the ground figured out how to coat 
the coca leaves, that they were resistant to the aerial 
spraying. If you talk to President Uribe, or Senator Uribe now, 
and those who share his point of view, including a large number 
of people in Florida who keep tabs on this issue, they argue 
that this stopped, the eradication effort stopped as a 
concession to make peace possible with the FARC.
    Secretary Brownfield, no one knows about this more than you 
do on our side. Would you care to opine on that debate?
    Mr. Brownfield. I will be uncharacteristically careful, Mr. 
Chairman, because just as I admire and respect enormously 
President Santos, I also admire and respect enormously former 
President Uribe. I believe they are two extraordinary men, and 
I hope when they both cease to be president I can call each of 
them a friend.
    I opposed the decision to end aerial eradication in 2015. I 
acknowledge, however, that it was a sovereign decision for the 
Government of Colombia and that the Government concluded that 
it had to do so as the result of a Supreme Court decision. I 
regret that.
    I do believe it had an impact in terms of the explosion of 
coca cultivation in Colombia. I believe, for example, the 
entire issue of social protest, which is to say the community 
where coca growers are located rally when eradication missions 
arrive, block the highway, the policy back-off because they are 
concerned about being prosecuted in the event that they use 
force against the community. That was not a problem that they 
had when they were doing aerial eradication. You cannot protest 
from the ground an airplane that is flying over a coca field 
and killing the coca from the air.
    Those who defend the decision are correct when they say 
that the coca growers had learned by the year 2015 how to avoid 
most of the eradication efforts. They consciously grew and 
cultivated in national parks, in indigenous reserves, near the 
borders of Ecuador and Venezuela, and in areas where the FARC 
had a presence, or at least had some degree of influence.
    This was supposed to stop with the peace accord when the 
FARC committed, in Chapter 4, I believe, to become an active 
player in combatting, resisting, and eliminating drug 
trafficking and cultivation, something that I call upon them 
today to do. And in addition, during my two visits to Colombia 
earlier this year, I felt we had an understanding that they 
would open up areas previously closed to forced eradication 
near the borders, in the national parks, in the FARC-influenced 
zones, and in indigenous reserves, and start to hit the areas 
that had not been hit before. That is an area where we still 
need to do work.
    Do we need to get back to aerial eradication? I cannot do 
it right now, Mr. Chairman. All of the equipment that we had as 
of 2015 has been either turned over to the Colombians or we 
have passed it off to other buyers. From a standing start, it 
would take us, optimistically, between a year and two years 
before we could be operational again, and we would still 
confront the legal problem that led the Colombian Government to 
terminate aerial eradication two years ago.
    Senator Rubio. Well, I want to thank both of you for being 
here.
    Two housekeeping items.
    Thank you both for being here.
    This is my statement, not yours, but I want it to be on the 
record. I am going to ask you about the sanctions. I deeply 
believe that there are individuals in the Venezuelan Government 
today, sanctioned and unsanctioned, who will one day be 
indicted or have been indicted, and I believe will one day be 
extradited to the United States and face charges in this 
country for their participation in the drug trade, and I want 
that to be clear and on the record because that will happen. I 
do not know if it will happen next year or five years from now, 
but it does not end well for them. Beyond their human rights 
violations, they have also played a role, in my view, in 
destabilizing Colombia through the assistance and space they 
created for the FARC and the narco-trafficking groups that 
continue to try to undermine the Colombian state. Hence, the 
interrelationship of these two matters.
    But I thank you both for being here.
    What I am going to ask now is for the second panel to begin 
to transition over. I have to go vote because if I do not, and 
they write an article about how I missed a vote, then you guys 
are going to have to be my witnesses that I tried to get there.
    But if Senator Menendez arrives before I get back, I am 
going to ask him to open up the second panel so we can get 
going, because we also have a nomination right behind it.
    But I thank you both for being here.
    While you guys adjust, we are going to be in a brief recess 
while I go vote, and then either Senator Menendez will open up 
the second panel or, if I make it back before he does, I will 
do that.
    So, thank you both for being here.
    We will recess for a few minutes. [Recess.]
    Senator Menendez. [presiding] The committee can come back 
to order. The Chairman has gone to take a vote and has asked me 
to begin our second panel, which he introduced previously, and 
we are pleased to have both of your experience here.
    And with that, we will start with Mr. Cardenas.

      STATEMENT OF JOSE CARDENAS, FORMER ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
      AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Cardenas. Thank you. Thank you, Senator Menendez. It is 
an honor and a privilege to appear before you today to discuss 
the critical issue of the Colombia peace process and its 
implications for U.S. policy.
    I am going to try to speed-read through my oral testimony 
so we can get to discussion. But I want to begin by saying that 
the narrative of Colombia as a success story should not breed 
complacency about the serious challenges the country continues 
to face. Colombia may be at peace, on paper at least, but the 
process continues to be burdened by the lack of political 
consensus in Colombia, an untrustworthy partner in the FARC, 
continued organized criminality, and a politically weak, lame-
duck president.
    To consolidate the achievements of a decade of U.S. 
support, it is imperative that the United States remains 
engaged to target the significant challenges to establishing a 
real and lasting peace.
    I describe the challenges more fully in my written 
testimony, but I wanted to note two in particular. First is the 
lack of popular support for the peace agreement due largely to 
the Colombian people's profound lack of trust in the FARC as an 
honest interlocutor. Thanks to its 50-year record of murder, 
kidnapping, extortion and drug trafficking, it is difficult to 
over-estimate the animus the Colombian people have for the 
group. This continued distrust poses a serious challenge to 
implementation of the agreement, especially the reintegration 
of guerillas into society and its acceptance as a legitimate 
political movement.
    Let me just add that the burden to changing this situation 
is not on the Colombian people and not on the Government but on 
the FARC, who must demonstrate tangibly their supposed change 
of heart.
    Secondly, the peace accord will be undermined by continued 
criminality in Colombia. The demobilization of thousands of 
FARC guerillas does not mean the end of conflict and 
criminality in Colombia. Major organized criminal groups 
continue to engage in drug and human trafficking, illegal 
mining and kidnapping, while perpetrating attacks against 
military and civilian targets.
    If these groups continue to impede the pacification, 
stabilization and development of the rural areas, then we are 
merely running in place as far as the long-term prospects for 
peace and combatting the drug trade.
    With so much blood and treasure invested in Colombia by the 
United States over the past 15 years, we have no choice but to 
help Colombia secure the peace so that the hard-fought-for 
gains of the past decade are not lost. In particular, we cannot 
simply allow the agreement to undermine longstanding U.S. 
counter-narcotics efforts in Colombia, as we heard during the 
first panel.
    I would advise Congress also to be circumspect about 
dramatically increasing aid to Colombia without heightened 
oversight to ensure that, in particular, it is used creatively 
and purposefully on behalf of Colombian efforts to develop 
self-government and licit economies in areas once controlled by 
the FARC. Empowering rural Colombians and providing them a 
stake in their country's future will, in the end, do more to 
ensure peace than 1,000 Nobel peace prizes.
    Also, to pick up on something you were saying during your 
earlier remarks about these programs, alternative development, 
crop substitution, self-government in the areas controlled by 
the FARC, the rural areas, I think that what the difference is 
today is that if we are to follow the logic of President 
Santos' agreement, then we will have for the first time an 
opportunity for these programs to really work, because what is 
being suggested is that the FARC will no longer be in a 
position to spoil these efforts, because what has hampered, 
what has hindered, and what has blocked the success of many of 
these programs, of alternative development and crop 
substitution, has been the FARC's ability to undermine these 
programs, block these programs, because they do not want rural 
Colombians to be able to develop licit economies or engage in 
self-government.
    I would add that the United States should also continue to 
provide robust intelligence and technical assistance, 
monitoring FARC leaders to ensure they are otherwise complying 
with their commitments and are not playing a double game.
    We should also assist Colombia in helping to uncover FARC 
assets hidden abroad. That dirty money should not be used to 
build a political profile and a political agenda, a political 
movement for the FARC.
    Let me just conclude by saying that whatever anyone thinks 
about President Santos' decision to seek peace with the FARC, 
the United States must continue to maintain common cause with 
millions of skeptical Colombians who are otherwise resigned to 
give peace one more chance. We have come too far together at 
this point to abandon the journey.
    Thank you.
    [Mr. Cardenas's prepared statement follows:]


                  Prepared Statement of Jose Cardenas

    Mr. Chairman, Ranking Member Menendez, distinguished members of the 
subcommittee, it is an honor and privilege to appear before you today 
to discuss the critical issue of the Colombia Peace Process and its 
implications for U.S. policy.
    The U.S.-Colombian strategic partnership has been one of the most 
successful U.S. foreign policy initiatives since the end of the Cold 
War. A country that was bordering on failed-state status in the late 
1990s is once again being hailed as a stable, vibrant democracy. But 
the narrative of Colombia as a success story should not breed 
complaceny about the serious challenges the country continues to face.
    President Juan Manuel Santos surprised both Colombians and the 
international community in 2012 by announcing his intention to enter 
peace negotiations with the narco-terrorist FARC (Fuerzas Armadas 
Revolucionarias de Colombia), whose five-decade war against the 
Colombian state had resulted in some 260,000 deaths of Colombian 
citizens, with seven million displaced and another 60,000 unaccounted 
for. After four contentious and controversial years of negotiations 
held in Cuba, an agreement was struck on September 26, 2016.
    On paper at least, Colombia is now at peace. For millions of people 
in the areas of past conflict, life has improved in tangible ways. 
However, serious questions remain about the longer-term prospects for 
peace in Colombia and the underlying issues that have plagued Colombia. 
Burdened as the process is by the lack of a political consensus, an 
untrustworthy partner in the FARC, continued organized criminality and 
violence perpetrated by remaining criminal groups and FARC dissidents, 
and a politically weak lame duck president, to consolidate the 
achievements of a decade of U.S. support it is imperative that we 
target the significant challenges of establishing a real and lasting 
peace.
A Divided Country
    Colombians overwhelmingly support peace for their country; but they 
are divided as to how much they are willing to concede in order to 
achieve it, as was demonstrated by the October referendum on the 
accord. Those divisions and concerns were never fully addressed and now 
continue to divide the country as it approaches the 2018 presidential 
elections. Many believe that the agreement grants FARC leaders impunity 
by not demanding more justice and accountability for their long record 
of crimes against the Colombian people.
    The arrogant attitude adopted by the FARC throughout years of 
negotiations and continued since reaching the accord aggravated this 
sentiment. FARC leaders never evinced any real remorse or contrition 
for their crimes, acting instead as though they were fully justified in 
their actions and on the same moral plane as the Government. Many 
Colombians believe that the FARC changing from camo to civilian dress 
signifies not a renouncement of their Marxist Leninist aims, but merely 
a change of tactics to make use of electoral democracy to achieve their 
objectives.
    Yet even the most vocal opponents of the accord talk about the need 
to preserve the accord and address its problematic elements during the 
implementation rather than simply discard it.
    Perhaps the most controversial provisions in the agreement relate 
to transitional justice, or to how FARC leaders accused of genocide and 
other war crimes will be held accountable. Critics are indignant that 
the accused can avoid jail time by confessing before a special tribunal 
(separate from the Colombian judicial system) and being sentenced to 
``restricted liberty'' to be served out specially designated geographic 
zone (about the size of a rural hamlet or urban neighborhood) rather 
than in prison. To assuage concerns of a developing a ``parallel'' 
judiciary, the deal will limit the tribunals to ten years' operation 
and all cases before them must be presented within the first two years. 
Additionally, tribunal decisions may be appealed to the country's 
constitutional court.
    Another particular contentious point is the guarantee of political 
representation for the FARC in the Colombian Congress: a minimum of 
five seats in the House and five in the Senate for two legislative 
periods. Former President Alvaro Uribe, now a Senator and leader of the 
organized opposition to the accord, had argued that those convicted of 
crimes against humanity should be barred from holding public office (as 
had Human Rights Watch), but those demands were not accepted. According 
to Santos, ``The reason for all peace processes in the world is 
precisely so that guerrillas leave their arms and can participate in 
politics legally.''
    The status of the FARC's financial assets is also a point of major 
concern. According to the Colombian Defense Ministry, the FARC made as 
much as $3.5 billion a year from its involvement in drug-trafficking, 
illegal mining, kidnapping, and extortion. Opponents of the deal feared 
that the FARC would hide those funds for later use in political 
campaigns and bribery. The revised agreement requires an ``exhaustive 
and detailed'' accounting of the FARC's financial assets, which must be 
turned over to the Government to pay for reparations for victims of the 
conflict.
    Despite those principal revisions, however, critics are still not 
mollified. Nor were they reassured when the Santos Government bypassed 
another referendum and immediately sent the revised agreement to 
congress, where Santos' coalition controls both houses. (Some 30 
lawmakers allied with Uribe protested by walking out of Congress right 
before the vote; hence Santos' unanimous victory.)
    Yet, beyond every dot and dash in the 300-page agreement lies a 
more fundamental problem for securing the peace. That is, the Colombian 
people's profound lack of trust in the FARC as an honest interlocutor. 
Quite simply, they have seen this movie several times before, and it 
always ends the same: with FARC duplicity. This continued distrust and 
hatred poses a serious challenge to the reintegration of guerrillas 
into society.
    Thanks to the FARC's 50-year record of murder, kidnapping, 
extortion, and (later) drug trafficking, it is difficult to 
overestimate the animus the Colombian people have for the group. 
According to a Gallup poll in May, 82 percent of Colombians have a 
negative opinion of the FARC. Genuine peace would require the FARC to 
take dramatic steps to overcome the deep suspicions with which 
Colombians view them, so that they might see them as legitimate 
political actors in South America's oldest democracy. The burden for 
this is not on the Colombian people or the Government. The FARC leaders 
must show that they are truly committed to peaceful reintegration and 
acknowledge the terrible suffering that their actions have put the 
country through. Until that happens, the FARC might never earn broad 
acceptance as a bona fide political force.
Challenges to Implementation
    The FARC's estimated 7,000 foot soldiers have moved into 27 
specially designated zones around the country, where they are 
reportedly relinquishing their weapons to a U.N. verification force--
although it is important to point out that they are only turning in 
weapons they self-reported to the Government and U.N. Numerous weapons 
caches are being seized by U.N. officials, but more than half of those 
reported to officials remain hidden and we can assume that many more 
have not been reported.
    Additionally, coca cultivation has exploded and Colombia is now 
producing more than ever before. According to the latest numbers from 
the U.N., cocaine production in 2016 increased by 34% from the year 
before while coca cultivation increased by 52%.
    The peace accord's implementation will be undermined by continued 
criminality in Colombia. It is important to note that the 
demobilization of thousands of FARC guerrillas does not mean the end of 
conflict and criminality in Colombia. As a recent report from the 
American Enterprise Institute explains, major organized criminal groups 
such as the ELN and the paramilitary Clan del Golfo continue to engage 
in drug and human trafficking, illegal mining, and kidnapping while 
perpetrating attacks against military and civilian targets. These 
groups are also actively seeking to reoccupy the spaces left by the 
demobilization of the FARC.
    Furthermore, the worrying appearance of supposed FARC 
``dissidents'' portends a direct continuation of the FARC's 
criminality, albeit with a reduced capacity. The existence of an 
organized FARC dissident group with hundreds of members also raises 
serious concerns about the possibility of remaining ties--including 
financial relationship--between the FARC political movement and 
``dissidents'' who remain engaged in lucrative criminal activity.
    Problems from the Government's fulfillment of the accord have also 
sparked complaints from the FARC. These complaint's range from 
insufficient food and supply deliveries in the demobilization zones to 
the lack of progress on the release of guerrillas jailed prior to the 
accord.
    That any process as complex and controversial as this would be 
subject to fits and starts, progress and reversal, unplanned 
complication after unplanned complication is not surprising. Still, the 
Santos Government hasn't always appeared adequately prepared for 
contingencies and other problematic developments, raising questions 
about its capacity to manage the implementation phase. These challenges 
have continued into the implementation phase with controversies, 
delays, and multiple accusations of a failure to adhere to the 
agreement coming from all sides. The FARC can be counted on to game the 
situation to its advantage at every turn to increase their political 
power. The Colombian Government will continue to require strong support 
and accountability from the United States and the international 
community to ensure the implementation goes as smoothly as possible.
The U.S. Role
    As Latin America's fourth largest economy and the largest recipient 
of U.S. assistance, what happens in Colombia matters to the United 
States. Under both Republican and Democratic administrations, 
Washington has provided more than $10 billion in aid to Colombia since 
2000 to combat drugs and drug-related violence. Colombia has also 
become a key ally in the fight against transnational organized crime 
throughout the region.
    The Obama administration supported the Santos Government throughout 
the negotiations with the FARC, pledging some $400 million in further 
assistance under a new framework called Paz Colombia (Peace Colombia) 
to help implement the peace plan, including the demobilization of 
guerrillas, demining, and expansion of alternative development and good 
governance programs in the conflict zones.
    In a May 2017 meeting with President Santos, President Donald Trump 
affirmed his willingness ``to assist Colombia's strategy to target and 
eliminate drug trafficking networks, illicit financings, coca 
cultivation, and cocaine production, of which there is far too much.'' 
He also noted, however, he was ``highly alarmed'' by the reports of 
record highs in coca cultivation and cocaine production, ``which, 
hopefully, will be remedied very quickly by the President. We must 
confront this dangerous threat to our societies together.''
    With so much blood and treasure invested in Colombia by the United 
States over the past 15 years, we have a significant stake in what 
happens in this strategic ally. Some of us may have deep reservations 
regarding President Santos's decision to seek peace with the FARC, but 
we recognize that the United States has no choice but to remain fully 
engaged with the Colombian Government to ensure the implementation goes 
as smoothly as possible. We simply cannot allow the agreement to 
undermine long-standing U.S. counter-narcotics efforts in Colombia.
    Congress and the Trump administration are right to be circumspect 
about dramatically increasing aid to Colombia amidst the uncertainty 
surrounding the deal's implementation. Both should recognize the need 
to secure the peace so that the hard-fought gains of the past decade 
are not lost. There will remain profound suspicion of the FARC 
demanding heightened oversight of U.S. assistance to ensure that it is 
used creatively and purposefully on behalf of Colombian efforts to 
develop self-government and licit economies in areas once controlled by 
the FARC.
    The United States should also continue to provide robust 
intelligence and technical assistance monitoring FARC leaders--not to 
mention assisting Colombia in helping to uncover FARC assets hidden 
abroad--to ensure they are complying with their commitments to abandon 
criminal activities and are not otherwise playing a double-game. 
Congress might want to consider the need to provide additional 
authority that any recovered FARC assets could be allocated to U.S. 
security and economic assistance to Colombia and other countries 
impacted by this criminal activity. The U.S. should also assist in the 
fight against other drug trafficking groups such as the ELN. There is 
also some concern that the Colombian Government has not provided 
adequate funding to ensure that its military has the capacity to 
confront criminal bands and residual guerrilla groups.
Conclusion
    In short, the United States' common cause should be with the 
millions of Colombians who also have deep reservations about peace with 
the FARC, but are willing to try one more time. There is much yet to be 
done. It will require that the Colombian Government accomplish things 
it has never achieved in its history: for example, establishing a 
government presence throughout its entire territory, including in 
regions previously controlled by the FARC. Providing marginalized 
Colombians with government services and economic opportunities will 
spell the success or failure of an enduring peace. Developing 
infrastructure, creating markets, building schools and clinics, and 
modernizing and strenghthening local governance--for example, with the 
type of programs carried out by the International Republican Institute 
and the National Democratic Institute--and providing for public 
security will not be cheap; Colombian estimates place the cost at some 
$30 billion. It will also not be accomplished overnight.
    Yet this is what is ultimately necessary to achieve a lasting and 
durable peace in Colombia. For 50 years, the FARC has recruited or 
kidnapped young people on the margins of society. Protecting and 
empowering these people by securing their local communities, providing 
alternative ways to prosper, and giving them a stake in their country's 
future will, in the end, do more to ensure domestic peace than 1,000 
Nobel Peace Prizes. But first you have to reach them, and that requires 
a disarmed and demobilized FARC no longer in a position to spoil the 
effort.


STATEMENT OF JUAN GONZALEZ, ASSOCIATE VICE PRESIDENT, THE COHEN 
                     GROUP, WASHINGTON, DC

    Mr. Gonzalez. Good afternoon, Ranking Member Menendez. 
Thank you, members of this committee, for this opportunity to 
come and testify about Colombia. It is an honor to be sitting 
next to my former distinguished colleague, Jose Cardenas.
    I would like to summarize the remarks that I submitted for 
the record, but start out by underscoring that the amazing 
success of the U.S.-Colombia strategic partnership is a product 
of the longstanding bipartisan consensus in favor of Colombia 
that exists in this body. Indeed, it was thanks to the 
leadership and oversight of the U.S. Congress that the United 
States was able to provide sustained support for Plan Colombia 
throughout the years, and to continue that support for Peace 
Colombia with $450 million in Fiscal Year 2017 to help the 
country implement an historic peace agreement with the 
Revolutionary Armed Forces of Colombia.
    On a personal level as a Colombian American, it was the 
leadership by this body that inspired me into public service, 
because it demonstrated the transformational nature of U.S. 
foreign policy when combined with Colombian political will. So, 
thank you for your continued leadership and for inspiring a 
young Colombian American like myself to serve his country for 
over 17 years.
    I had the good fortune to serve on the National Security 
Council when President Santos began to set the stage for 
negotiations with the FARC. By then, the United States had 
stood by Colombia on the battlefield for over a decade, so for 
us there was no question that we would continue our support for 
Colombia as it pursued a negotiated peace.
    The rationale was simple: we recognized that supporting a 
sustainable and just peace presented the best policy option for 
the United States to achieve a strategic victory against the 
Colombian drug trade, and that entering into negotiations also 
offered an opportunity for the Colombian Government to 
delegitimize the FARC for the narco-terrorist organization that 
it is, masking itself as a belligerent movement by separating 
its political component from the criminal elements.
    Taking the long view, the prospects of a Colombian peace 
also offered an opportunity for the country to fulfill its full 
potential as a regional leader and an exporter of security. 
Successfully addressing the domestic security situation would 
also allow Colombian foreign policy to embrace a broader 
international vision that includes developing a 21st century 
military, establishing an active partnership role with NATO, 
accession to the OECD, and increasing its already robust 
participation in international fora.
    Peace also offered an amazing potential for U.S. businesses 
to benefit while also investing in the broad-based prosperity 
of Colombia and its people. But we also knew that Colombia 
would need our help with implementation if the talks succeeded, 
but perhaps more so if they did not. That is why in 2012 we 
agreed to establish the U.S.-Colombia High-Level Strategic 
Security Dialogue as a high-level mechanism for two-way 
communication between our respective national security teams on 
everything from peace negotiations, the country's security 
challenges, and military transformation. It was the first time 
since the initial years of Plan Colombia that the United States 
and the Colombian Governments were engaged at such a high level 
on national security matters and to think about what the 
bilateral relationship could look like post-Plan Colombia.
    Our initial focus was on the counter-insurgency strategy 
which represented an integral part of the Government's efforts 
to lay the groundwork for negotiations with the FARC. Under the 
leadership of then-Minister Juan Carlos Pinzon, the Government 
took the fight to the FARC's traditional safe havens and 
targeted its financial infrastructure, increasing the incentive 
for the group to negotiate in good faith for the first time 
since its creation. We made human rights a central part of 
every conversation, used the dialogue to convey our 
expectations with regard to continued cooperation, and our 
respective justice counterparts engaged actively on matters 
related to extradition and transitional justice.
    We also developed a regional plan for cooperation in 
Central America under the leadership of Assistant Secretary 
Brownfield.
    A lot has happened since 2012. At first, we were not 
represented in Havana, but when talks advanced to critical 
issues, President Obama and Secretary Kerry agreed to send the 
distinguished Bernard Aronson as a special envoy in 2014. It 
took several years of negotiations, but the FARC and the 
Government finally reached a peace agreement in November 2016, 
but the hard part is just beginning.
    All those years of painstaking work are now at risk for two 
reasons. One is the political battle between the current and 
former president of Colombia in the run-up to next year's 
legislative and presidential elections, and a spike in 
cultivation following the suspension of aerial eradication in 
2015. In that context, the August 13 visit of Vice President 
Pence to Latin America, which includes Colombia, is incredibly 
important and could determine the course of U.S.-Colombia 
cooperation over the next several years.
    I was just in Colombia and had an opportunity to meet with 
several senior officials and presidential candidates, and if I 
was in my former job advising Vice President Pence to go down 
on his way down to Colombia, I would tell him a couple of 
things, very briefly.
    First, the question of whether or not to follow through 
with the implementation of the peace agreement will become 
central to next year's elections in Colombia, but that debate 
should be behind us. A lot of the current debate reflects 
preparations for the elections next year. The focus of the 
United States should remain on robust implementation.
    Second, the problem of increased coca cultivation is simple 
arithmetic: more coca, more money to Colombian criminal groups. 
But aerial eradication is not the only answer. It was 
originally developed as a short-term solution to create a space 
for the Colombian Government to establish the presence of the 
state. Right now we are at a time when the Colombians are as 
alarmed as we are by the spike in coca cultivation, and the 
focus should be on helping them do it their way and achieve 
results through increased law enforcement operations, rural 
development, manual eradication, and a focus on public health.
    Third, as my colleague, Jose Cardenas, said, the FARC must 
come clean with regard to its finances. They have a fortune 
that is estimated in the billions of dollars. And we also have 
to get better as a U.S. Government in tackling the financial 
aspects of the drug trade, and this is where the Congress can 
play an important role in helping the administration develop 
the necessary tools.
    Fourth and lastly, and I will finish here, Senators, the 
Colombian national police needs all the support it can get to 
fill the vacuum. As part of the peace agreement, the military 
is supposed to cede the space to the police, and they will have 
to hire a significant amount of people, but they also need 
technical expertise and training if they are to succeed.
    And last but not least, sir, back to where I started, which 
is the bipartisan support of Colombia. I would urge Congress to 
signal that support, that continued support through the 2018 
budget. The President reduced that request for Colombia from 
$391 million to $250 million, which suggests the United States 
is walking away from Colombia. When compared to the billions of 
dollars the United States spends in the Middle East every week, 
the impact of $10 billion over the life of Plan Colombia 
represents a better return on investment, and I will leave it 
there.
    Thank you very much.


    [Mr. Gonzalez's prepared statement follows:]


             Prepared Statement of Juan Sebastian Gonzalez

    Mr. Chairman, Mr. Ranking Member, distinguished members of the 
committee, thank you for this opportunity to testify before you today 
on ``Assessing the Colombia Peace Process: The Way Forward in U.S.-
Colombia Relations.'' It is an honor to testify beside my distinguished 
former colleague Mr. Jose Cardenas.
    The amazing success of the U.S.-Colombia strategic relationship is 
a direct result of the longstanding bipartisan consensus in favor of 
Colombia that exists in this body. Indeed, it was thanks to the 
leadership and oversight of the U.S. Congress that the United States 
was able to provide sustained commitment to Plan Colombia through the 
years, and to continue that commitment by supporting Peace Colombia 
with $450 million in Fiscal Year 2017 as the country works to implement 
a historic peace agreement with the Revolutionary Armed Forces of 
Colombia (FARC). As a Colombian American, it was this leadership that 
inspired me into public service, because it demonstrated the 
transformational nature of U.S. foreign policy when combined with 
Colombian political will. So, thank you for your continued leadership 
and for inspiring a young Colombian American to serve his country just 
over 17 years ago.
    U.S. Support for the Colombian Peace Process
    During my service with the Obama administration, I served on the 
National Security Council (NSC) when President Juan Manuel Santos began 
to set the stage for peace negotiations with the FARC. By then, the 
United States had stood by Colombia on the battlefield for over a 
decade, so there was no question that we would continue our support as 
Colombia pursued a negotiated peace. From our perspective, supporting a 
sustainable and just peace presented the best policy option for the 
United States to achieve a strategic victory against the Colombian drug 
trade. Entering into negotiations also offered an opportunity for the 
Government to delegitimize a narco-terrorist organization masking 
itself as a belligerent movement by separating its political component 
from the criminal elements.
    As the administration considered its policy options, it was clear 
that Colombia would continue to need our help with implementation if 
the talks succeeded, but perhaps more so if they did not. Taking the 
long view, the prospect of a Colombia at peace also offered an 
opportunity for the country to fulfill its full potential as a regional 
leader and an exporter of security. Successfully addressing the 
domestic security situation would free up the Government to pivot 
toward a broader international vision that included developing a 21st 
century military, establishing an active partnership role with NATO, 
achieving accession to the OECD, and increasing its already robust 
participation in international fora. Peace also offered amazing 
potential for U.S. businesses to benefit while investing in the broad-
based prosperity of Colombia and its people. Without a doubt, 
supporting peace negotiations was the right choice for the United 
States and for the Colombian people. The modalities were another 
question.
    At the beginning, we decided against joining the negotiating teams 
in Havana, even though both the Colombian Government and the FARC 
wanted us there. We knew the presence of the United States would 
distract negotiators from the fundamental points of the agenda, 
including land reform and end-of-conflict. Instead, we agreed to 
establish the U.S.-Colombia High-Level Strategic Security Dialogue 
(HLSSD) in 2012 as a high-level mechanism to communicate U.S. national 
security interests and to provide the Colombians with a direct channel 
on matters related to peace negotiations, security challenges, and 
military transformation. It was co-chaired by the Deputy National 
Security Advisor and the Colombian Minister of Defense, with the 
participation of our respective national security Departments and 
Agencies. It was the first time since the initial years of Plan 
Colombia that the U.S. and Colombian Governments were engaging at such 
a high level on national security matters and starting to think about 
what the bilateral relationship could look like post Plan Colombia.
    Our initial focus was Colombia's revised counter-insurgency 
strategy, which represented an integral part of the Government's 
efforts to lay the groundwork for negotiations with the FARC. Under the 
leadership of then-Minister Juan Carlos Pinzon, the Government took the 
fight to the FARC's traditional safe havens and targeted its financial 
infrastructure to degrade its capabilities and increase the incentive 
for the group to negotiate in good faith for the first time since its 
creation. We made human rights a central part of every conversation, 
used the HLSSD to convey our expectations with regard to continued 
counternarcotics cooperation, and our respective justice counterparts 
engaged actively on matters related to extradition and transitional 
justice. We also developed a regional plan for cooperation in Central 
America under the leadership of Assistant Secretary William Brownfield 
and his team.
    I left the NSC in 2013 to advise Vice President Joe Biden on 
regional matters but remained actively involved in the HLSSD up until 
2014, when peace talks reached an advance stage and delved into 
difficult topics, including aerial eradication; and disarmament, 
demobilization, and reintegration. At that point, the locus of 
coordination on peace negotiations for the administration shifted to 
the Department of State, where Secretary John Kerry took an active 
personal role. His decision to name Bernard Aronson as U.S. Special 
Envoy to the negotiations helped accelerate the talks by demonstrating 
to the FARC that while the United States stood with the Government, it 
was also willing to listen to the other side. Aronson successfully 
navigated the difficult task of serving as the voice of the U.S. 
Government while avoiding getting pulled into the negotiations as a 
party to the talks. He also, as Colombia's peace commissioner told the 
Washington Post, helped the FARC understand that the world had changed. 
The FARC had lost perspective in the jungles of Colombia, and it was 
necessary to help them establish baseline realities about what was and 
was not possible at the negotiating table.
Implementing the Peace Agreement
    Following several years of negotiations, the Colombian Government 
and the FARC concluded a wide ranging peace agreement in November 2016, 
but the hard part is just beginning and there are already two serious 
threats against its successful implementation: the political battle 
between the current and former president of Colombia and the spike in 
coca cultivation following the suspension of aerial eradication. As 
Colombia prepares for legislative and presidential elections next year, 
the United States will again need to carefully avoid picking sides as 
it seeks to advance U.S. national security interests. In that context, 
the August 13-18 visit of Vice President Mike Pence to the region, with 
stops in Cartagena and Bogota, is incredibly important and could 
determine the course of U.S.-Colombia relations for the next several 
years.
    I was just in Colombia, and had the opportunity to meet with Vice 
President Oscar Naranjo, Director of the Colombian National Police 
(CNP) General Jorge Hernando Nieto Rojas, current and former officials 
from the ministry of defense, and several of the Colombian presidential 
candidates. The meetings provided me with important insights into the 
charged political dynamics in Colombia today. And if I were travelling 
with Vice President Pence on the Air Force 2 flight to Colombia, I 
would tell him this:
    First, the question of whether or not to follow through with the 
peace agreement itself will become central to next year's Colombian 
election, but that debate is already behind us. Much of the friction 
today between President Juan Manuel Santos and his predecessor Alvaro 
Uribe is politically charged, which detracts from what should be a 
conversation about how to address the valid concerns with the accord 
and its implementation. The diverging positions on those components of 
the agreement covering human rights accountability and the FARC's 
political participation are prominent examples, and should be addressed 
by Colombia's strong democratic institutions. But abandoning the 
agreement at this juncture would set Colombia back by a decade, 
significantly hurting the country's economic prospects and undermining 
U.S. national security. The focus of the United States should remain on 
ensuring robust implementation.
    Second, the problem of increased coca cultivation is simple 
arithmetic: more coca, more cocaine to the United States, more money 
for Colombian criminal groups, but a return to aerial eradication is 
not the only answer. An estimated one quarter of the $10 billion 
provided by the United States for Plan Colombia went to spraying coca 
crops when factoring air time, ground troops, the cost of glyphosate, 
etc. There's no question regarding the initial success of aerial 
spraying but it was always intended as a short-term solution that would 
allow the Colombian Government to re-establish rule of law in the 
countryside. Perhaps the Colombian Government's greatest mistake in 
negotiations with the FARC was to end spraying unilaterally in 
September 2015 without first placing responsibility on the FARC to 
produce results on voluntary crop substitution. That said, the 
Colombians are equally alarmed by the spike in coca production, and the 
focus of the United States should be to help them do it their way: 
through increased law enforcement operations, rural development, manual 
eradication, and a focus on public health to tackle the country's 
increased coca consumption.
    Third, the FARC must come clean with regard to its finances. 
Colombia's Attorney General estimates the FARC's fortunes to be 
somewhere in the billions of dollars, which the group vehemently 
denies. As a matter of policy, the United Sates should pursue every 
avenue to prevent the FARC from using its funds for anything other than 
upholding its accord-based commitment to compensate victims of the 
country's internal conflict. The United States also needs to do a 
better job of working with our regional partners to tackle the 
financial component of the drug trade, regardless of the currency. 
Congress should consider leading a dialogue with the administration on 
possible legislative tools to strengthen the ability of U.S. law 
enforcement to tackle criminal financial networks.
    Fourth, the CNP needs all the support it can get if it is to 
successfully fill the vacuum left by the Colombian Military. The CNP 
needs to hire and train thirty thousand more police personnel over the 
next ten years, but they will also need air mobility to project force 
throughout the country, the technical capabilities to tackle complex 
criminal networks, and a community-based approach to maintain rule of 
law in rural areas. Colombia's military is one of the best trained in 
the hemisphere, and the U.S. should work to get the CNP to the same 
level.
    None of this is possible without the leadership and oversight of 
the U.S. Congress. I would urge the distinguished members of this 
committee to engage personally and often on Colombia, including visits 
to see firsthand the progress in implementation. My former colleagues 
at the Department of State and esteemed former counterparts in the 
Colombian Government may not like to hear it, but conditionality on 
human rights needs to remain a necessary component of U.S. support to 
Colombia. Congress also should defend against any abrogation of U.S. 
law enforcement efforts related to Colombia--let us not forget the 
horrible crimes perpetrated by the FARC, including the kidnapping of 
American citizens and facilitating the flow of cocaine to our shores. 
The FARC may be able to enjoy the beaches of Cartagena, but never 
Miami.
    Lastly, please continue to send a signal of bipartisan support for 
Colombia through the Fiscal Year 2018 budget. The President reduced the 
request for Colombia from $391 to $250 million, which suggests that the 
United States is walking away from Colombia. When compared to the 
billions of dollars spent in the Middle East every week, the impact of 
$10 billion over the life of Plan Colombia represents a much better 
return on investment.


    Senator Menendez. Thank you both very much.
    I think I will start asking questions in order to move the 
hearing along and when the Chairman arrives yield to him.
    So, let me ask you, could the United States effectively 
help Colombia promote stability and work productively with our 
partners there without sustained American investments through 
the State Department and USAID?
    Mr. Cardenas. I think that we bring an essential 
complementary role. I agree with the implication that this is a 
problem that the Colombian people are going to have to address 
fully. I think, if I am not mistaken, I saw figures as high as 
$30 billion that the Colombian Government expects will be 
required for the full implementation of the peace plan, 
including the rural development and occupying the spaces that 
historically have not.
    But I think the United States plays an essential role, 
first of all because we----
    Senator Menendez. But can we play that?
    Mr. Cardenas. Yes.
    Senator Menendez. My question, for the sake of time, is can 
we play a significant role if we are not, in addition to our 
engagement, engaged with some resources here both on the rule 
of law, economic stability, economic development, and the State 
Department's diplomacy engagement?
    Mr. Cardenas. Yes. We have key and essential expertise to 
offer in terms of developing economies, in terms of linking 
those rural areas with the rest of the country, and in terms of 
the self-governance, improving our programs through IRI, NDI. 
These bring a special expertise to filling that space.
    Senator Menendez. Mr. Gonzalez?
    Mr. Gonzalez. Senator, I would say the answer is no, for a 
couple of reasons. First, over the course of Plan Colombia, the 
synergy that has developed between our militaries, between our 
police forces, and even at the diplomatic level, has become 
incredibly close. So if our strategic interest is to preserve 
that alignment with Colombia, we need to have a seat at the 
table.
    Secondly, when it comes to--no matter how successful the 
implementation of the peace agreement is, and there is no 
debate that there are aspects of that agreement, including 
human rights and transitional justice and how members of the 
FARC may participate in political life--there will be criminal 
elements that have no interest in actually being a part of that 
process. There is no other government or country in the world 
that can help Colombians achieve a strategic victory over these 
criminal elements like the United States.
    Senator Menendez. And for that we need to have resources to 
do it.
    Mr. Gonzalez. Yes, sir. But I would add that the new 
element would be that the private sector, the U.S. private 
sector can bring significant resources to bear in the 
development of Colombia's infrastructure in the countryside. So 
that should be an added element of complexity to the entire 
process.
    Senator Menendez. So, now, let me ask you, I hear you both 
say we need to stay the course, and I largely agree. But as a 
policymaker, what would you be saying to me if extraditions of 
wanted criminals in the United States does not take place; if 
coca eradication, however you devise the broad-based plan, not 
just aerial eradication, substitute crops, police enforcement, 
all of the elements that one would agree is necessary, does not 
take place? At what point does one consider success is peace 
ultimately the goal in the absence of all other things from a 
United States perspective? Maybe from a Colombian perspective 
it might be. But from me going to a United States taxpayer and 
saying we should give hundreds of millions of dollars, continue 
to give hundreds of millions of dollars to the Colombian 
Government, even in the face of criminals not being extradited, 
even in the face of coca still growing significantly, and we 
have not even had a real chance to talk about human rights, 
which I think is very important as well, how do I justify that 
to American taxpayers?
    Mr. Cardenas. Senator, I think the word you used earlier 
was reciprocity, and I take a back seat to nobody in insisting 
on the fact that U.S. interests remain protected and remain 
central to our engagement with Colombia. I disagree totally 
with the slow walk on extraditions. I disagree with ending 
aerial fumigation. I think that in our engagements with 
Colombian officials we continue to need to insist on respect 
for U.S. interests in this.
    We do have, obviously, overall bilateral interests or joint 
interests in suppressing criminality and suppressing drug 
trafficking with Colombia, but we also have some very specific 
interests, and these have to be protected as we go forward with 
Colombia. We will see a new government taking office next year 
in Colombia, and I think that is where we pick up with the new 
candidates, is an insistence on defending U.S. interests in 
this bilateral relationship.
    Mr. Gonzalez. Senator, just very briefly, I think that it 
is a balance of strategic patience and rigorous oversight, 
which we have a long history of advancing in the region. 
Certainly, the bipartisan consensus in favor of Colombia exists 
on the pillars of eradication of coca, of the active 
extradition relationship, and the respect of human rights. And 
all three are potentially in peril as Colombia looks to 
implement the peace agreement.
    I think that, in terms of using taxpayer money effectively, 
we should have that conversation with the Colombians in a way 
that on the one hand respects that only Colombians can find the 
right balance between justice, peace, and truth; but also 
saying that if the United States is going to be there in 
support, that we have certain expectations with regard to 
international humanitarian law, with regard to the rule of law 
and the active extradition relationship, and that they need to 
demonstrate results on the coca front.But I think the 
Colombians do recognize this. They recognize the urgency of it.
    So I think an active dialogue, but also, secondly, my 
former colleagues at the Department of State will shudder when 
I say this but the conditionality that the U.S. Congress 
includes in the appropriations legislation has been 
instrumental in the success of Plan Colombia and should 
continue.
    I think lastly, sir, just considering additional tools for 
law enforcement would be something I think that would help 
increase the synergy between law enforcement in the United 
States and law enforcement in Colombia to achieve gains.
    Senator Menendez. I, for one, am of the view that the 
conditionality is important here to achieve what I believe are 
mutual goals. But certainly sometimes some of the hardest 
elements of what your work is are the ones that we avoid for as 
long as we can, and for so long as aid continues to flow and a 
``yes, I get it, but you do not actually do something'' works, 
then that is what will happen. At some point my own view is, as 
a long-term supporter of this, is that conditionality is going 
to be important to meet the three pillars of justice--i.e. 
extradition, work on narcotics trafficking, and a promotion of 
human rights--as elements of our policy.
    Mr. Chairman, thank you.
    Senator Rubio. [presiding] Thank you, and thanks for 
starting it up so we would not have to waste anyone's time.
    Let me first begin with a sort of--you guys have both 
watched the sort of internal debate going on in Colombia 
between the--and I just characterize it this way because it is 
the easiest way to do so, the sort of people of the old view 
that President Uribe holds and who by and large I think are 
represented in the Colombian-American community, that the peace 
deal, they want peace, but they want peace with security, that 
in many ways this peace deal is illusory, and that in many ways 
it perhaps contributes to a lack of security.
    The flip side, of course, is the Santos Government's view 
that this is a good thing and that we need to continue to move 
forward on it. Obviously, there will be new presidential 
elections coming up soon.
    What is your take on how central an issue that is going to 
be in that campaign? It certainly was the central issue in the 
referendum vote that occurred a couple of years ago, but how 
has that played out since then, and what role will that play in 
the next presidential national election in Colombia? Do you 
view it as the central issue that will be debated?
    Anyone? Do you want to go in alphabetical order, Mr. 
Cardenas?
    Mr. Cardenas. Thank you, Mr. Chairman. I think that my 
sense is, in watching the ebbs and flows of Colombian politics 
as they head into an election year, is that there is a 
tremendous amount of fatigue, fatigue with the cacophony of 
yelling and shouting about the peace process.
    I think that my own sense is that as difficult as it was 
for many Colombians to swallow, they are willing to see how the 
process evolves. In other words, no one, I believe, is going to 
campaign on a strict platform of tearing up the agreement. I 
think that perhaps there will be efforts to sharpen up 
enforcement, some of the aspects, more controversial ones.
    But I also think that, speaking generally about Colombia, 
that there is a popular frustration that President Santos has 
put so much effort into, has expended so much local capital and 
attention into the peace process that other problems of 
Colombia have been ignored that you see in a stagnant economy, 
you see complaints about social services, you see complaints 
about education.
    So a candidate coming next year is going to have to come up 
with--and also that has led to a frustration with the 
traditional political parties in Colombia. So candidates next 
year are not going to campaign up or down on the peace process. 
They are going to campaign on who can best provide a positive 
pathway forward for the country as a whole in terms of economic 
growth, in terms of, again, improving services.
    So no one that I see at this point is going to be 
campaigning up or down on the peace process, but there will be 
efforts, I would predict, to sharpen up.
    Mr. Gonzalez. Mr. Chairman, if I may just digress briefly 
on Venezuela. As a former government official, one of the 
liberating parts is that I do not have to clear what I have to 
say, and I just want to say that the legitimacy of a government 
is based on its ability to protect fundamental freedoms and 
rights. By that measure, Nicolas Maduro is an illegitimate 
leader of Venezuela. And secondly, by rigging this election and 
packing the members of the Constituent Assembly with loyalists 
to the Government, he has equally I think held illegitimate 
elections and the current government is illegitimate.
    The way forward has to be an electoral one, but at this 
moment the U.S. Government should come out vociferously saying 
as such.
    On the peace process, one of the things I said in my 
opening is that one of the dangers right now to the peace 
process is the debate between the current and former 
presidents, which in many ways is highly politically charged in 
advance of next year's election. In some ways, that is par for 
the course when it comes to politics in Colombia, but it is 
distracting from the real conversation about how do you make 
sure that the FARC stands by its commitment to spend its money 
to compensate victims is actually something that they deliver 
on, as well as the questions of transitional justice and human 
rights, and the questions of FARC's political participation.
    Human Rights Watch has come out and said that it is 
unfathomable for a FARC member who has pending charges to run 
for office. I would agree with that.
    So it is not right now a question of whether or not the 
agreement should stand but how Colombians can get to the most 
effective implementation.
    The challenge, though, is a political one, because since 
most Colombians live in urban centers, to them the war has been 
over for a while. They have not had to suffer from violence of 
the FARC. So when they see on television that the FARC is 
getting paid or that people in the countryside who were growing 
coca are being compensated above the minimum wage, they are 
right to be upset. The danger is that whoever comes in as a new 
president will see the increase in violence that will be a 
consequence of the implementation in the short term, and sees 
the unpopularity of some parts of this agreement, and then 
decides to walk it back. I think that would be a mistake, 
because the right way to do this is to have robust 
implementation and to find a balance that works for the 
Colombian people and to address some of the fundamental 
imbalances of inequality, of lack of presence of the state in 
Colombia.
    Senator Rubio. And just to further elaborate on that point, 
it has always been my position that Colombia is a sovereign 
nation that has elected representatives who have to respond to 
their people for the decisions they make. So I have never 
opined on whether I am in favor or not in favor of the peace 
agreement. That belongs to the Colombian people. They voted 
against it, but through their constitutional process they got 
it through the congress in Colombia, and they will have an 
election and people will be held to account for how they voted 
and what their positions might be.
    Where I do think we have a role to play is how it impacts 
U.S. foreign policy, and the first thing I have outlined--I was 
asked about it in the hallway. We have to go to our colleagues 
every year and justify the amount of money that we are putting 
towards this effort, and do so now in an environment where you 
see an uptick in cocaine production and coca cultivation. So I 
could see where my colleagues would say to us, well, why are we 
spending more money if it is getting worse, not better, and if 
it implicates the peace deal as a result, it endangers it? So 
that is the first thing.
    The second thing it touches upon is the standing of the 
FARC. We still designate them, and rightfully so, as a 
terrorist group. There is the example that I ran out of time to 
ask for our government witnesses, but on the 13th of February 
of 2003 there were four Americans, Department of Defense 
contractors. They were on a counter-narcotics flight mission. 
They were shot down by the FARC. The pilot, who was a retired 
member of the U.S. Army's Delta Force, was executed on the 
spot. There were three Floridians who were captured. They were 
held captive. They were tortured for over five-and-a-half years 
until they were rescued by the Colombian Army.
    So as we talk about the future of the Colombian peace 
accord and the demobilization of the FARC for the good of the 
Colombian people, we also have a group of Americans, all of 
whom were former U.S. military, and their families who were 
subjected to atrocities and crimes at the hands of the FARC. 
And to see people in any way associated with this wearing a 
suit and coming up to Washington as elected representatives of 
Colombia is a very difficult thing for anybody to tolerate 
here, not to mention a very difficult thing to justify in terms 
of our relationship and our funding.
    The other concern is that there are people who we worked 
with, hand in hand, with this effort who could now potentially 
find themselves standing trial before a FARC kangaroo court, 
where some of them are granted immunity and the like. So these 
things begin to impact our ability to seek the funding.
    So I have always pursued this not through the lens of what 
the Colombian people decide. They are going to have elections, 
unlike in Venezuela, which are legitimate. But how do we come 
back here and justify how that program is outlined?
    I think I walked in when the Ranking Member was talking 
about conditionality. There is, at least for our money--it has 
to be clear that our money cannot be used to reward the FARC. 
It should not even be used to pay compensation for victims. The 
FARC should be paying that, and the like. And also, obviously, 
what is the point of getting rid of the FARC if the territory 
they once held and the industry they once ran has simply been 
replaced by another group, be it dissident members of the FARC, 
the ELN, the BACRIM, the Gulf Clan, or the like?
    The second question related to this--and I think we need to 
start thinking about it in these terms--we need to start 
thinking within our planning about what does instability in 
Venezuela mean to Colombia? In the short term, migratory 
pressures from a catastrophic meltdown that continues to happen 
humanitarian-wise--I know the Colombians should be very 
concerned about that.
    So my question to both of you is, number one, as we look 
forward on Plan Colombia, should there be elements of that that 
take into account some potential issues at the border with 
migration and the like? And the second is long term, start 
thinking about what would it mean if Nicolas Maduro is actually 
able to pull this thing off, hold on to power, him or someone 
like him remains in power?
    And you saw just two nights ago after the fraudulent 
elections, which, by the way, the voting machine people, the 
company, the CEO of Smartmatic said that those things were 
tampered with to affect the number of people voting. They did 
not have to affect the outcome because everybody voting, 
everybody running was in favor of Maduro, but maybe they messed 
with that as well.
    But you have here from BBC this morning the CEO of the 
company that provided the voting machines saying the voting 
machines were tampered with. So, there you go.
    But going back to the point of them being able to hold on 
to power, one of the things you heard them talking about that 
night in their speeches is imagine if they did a Constituent 
Assembly in Colombia, imagine if they did a Constituent 
Assembly in Brazil, in Mexico, in Argentina, almost to imply 
that once we hold on to power here and we stabilize the 
situation, we are going to use our resources to support people 
just like us in all of these other countries. And imagine a 
decade from now a Venezuela-style regime in Colombia, in 
Honduras and Guatemala and Panama, in Costa Rica. You already 
kind of have that in Nicaragua. So you can just begin to 
imagine how problematic this is.
    So I guess my question on that point is what should we be 
doing as part of Plan Colombia to help Colombia in the short 
and long term with regard to what is happening in Venezuela?
    Mr. Gonzalez. Mr. Chairman, I would say that in addition 
to--I do think the FARC does want to drive Colombia toward a 
Constituent Assembly, but the country's democratic institutions 
are strong enough and will survive. In Venezuela, since Chavez, 
they have reduced their institutiona to rubble and are not able 
to grapple with something like this.
    But you mentioned the hostages taken by the FARC. I was in 
Colombia a couple of weeks ago and I visited El Nogal, which 
was a nightclub that was bombed in 2002. There are memorials 
there to the 65 people that were killed by a car bomb that the 
FARC set off that included two American citizens that were 
killed.
    So it reminds you that the FARC is a narco-terrorist 
organization, and as such they may have some sort of 
arrangement with regard to transitional justice in Colombia, 
but they should never, ever be able to go to the beaches of 
Miami, and the Unites States and the U.S. Congress should never 
allow the abrogation of U.S. judicial claims, law enforcement 
claims over these individuals.
    At the end of the day, when you look at peace processes 
around the world, the balance between peace, justice and truth 
is never perfect, and it is often a matter of perspective or 
where you have been on the side of, particularly when it comes 
to protracted conflicts like the one in Colombia. I think only 
the Colombians will know that exact balance, but you are right 
to say that the U.S. Congress has a voice in that debate, and 
particularly when it comes to international humanitarian 
standards.
    So that is something that needs to continue to be 
emphasized, even as I know you have a good relationship with 
President Santos and President Uribe and President Pastrana. It 
is something that is, when you have a close friend, you have to 
have that direct conversation.
    On top of all of this, you have a Colombia that has an 
enormous task of implementing a peace deal with a potential 
humanitarian disaster right at its border. The first thing that 
will happen if there a meltdown of the Venezuelan economy is 
that Venezuelans are going to go to Colombia, much like 
Colombians went to Venezuela in the late 90s. That is a 
humanitarian issue. I know that Colombians have been preparing 
for this. I know the U.S. Government has been preparing for 
this. But up until now, the Venezuelan Government has not 
allowed the delivery of food, of international humanitarian 
assistance, and that needs to change. I think U.S. pressure 
should try to get them to that point.
    The second thing is you may have non-state actors that have 
access to some of the military equipment that exists in 
Venezuela. They have surface-to-air missiles. They have several 
military assets that in the wrong hands could cause a regional 
problem. So I think that is a regional solution that I think 
the United States and the administration and the Congress 
should be having with our regional partners to ensure that 
those challenges are contained.
    Senator Rubio. Just suffice it to say that--and I know we 
are going to run out of time because we have an ambassador 
hearing that we have to take up here at the conclusion of this. 
But just to be clear, as we understand how other elements have 
empowered themselves in the region, they run for office, they 
get elected as a minority party, they use democratic processes 
to gain power and then begin to govern undemocratically. We are 
under no illusion that that would be the goal of the FARC once 
they become engaged politically, is to engage themselves in the 
political life first through the legitimate organs of the 
democratic process, but eventually to gain power, and once 
there, go in the direction the Sandinistas and Ortega have 
taken Nicaragua and that Chavez and now Maduro have taken 
Venezuela. Certainly having a Maduro regime next door 
supportive of them would make them stronger in that effort, not 
weaker.
    I would ask you, Mr. Cardenas, about it, but I think I 
heard that embedded in both of your statements and testimony 
today.
    Mr. Cardenas. I will be very quick, Mr. Chairman. I think 
you described the political agenda of the FARC to a tee. I do 
not believe there has been any profound change of heart among 
the FARC. I think that they are merely changing their camo garb 
for civilian dress merely as a tactic to achieve political 
power. And then, as you have correctly noted, they would 
emulate the same agenda as we have seen others.
    And I think what is key to this, to impeding their plan or 
otherwise making them earn whatever political legitimacy they 
aspire to, is to go after the money. Find their offshore 
accounts and seize that money so that it is not employed 
directly to either suborn democratic institutions in Colombia, 
or buy off political support, as Chavez did with the oil 
windfall.
    Both you and the Ranking Member mentioned about having to 
continue to justify U.S. assistance to Colombia. I would urge 
the Trump administration to make political appointments to get 
politicals in some of these jobs, to appoint a strong 
ambassador in Bogota, to push the U.S. agenda, our interests, 
in our bilateral relations, to achieve the successes that we 
want to see without compromising on the kind of expectations 
that we have for the taxpayer money.
    Venezuela is a disaster for Colombia. It is not only 
regarding the narco trafficking, the consolidation of a narco 
state next door, what impact that will have on the coca growers 
and the traffickers in Colombia but also, as you know, Mr. 
Chairman, the humanitarian crisis of Venezuelans pouring over 
the border into these very same rural areas that the Colombian 
Government and partners like the United States are setting out 
to pacify and stabilize. It is an unmitigated disaster. Here 
you have Venezuela and Cuba as co-guarantors of the peace 
agreement. It just goes to show that when you go to the local 
Mafia don for a favor, you are basically at his mercy for the 
rest of your life.
    Senator Rubio. Well, on that uplifting note--[Laughter.]
    Senator Rubio. We want to thank both of you for being here. 
We apologize for the disruption and the back and forth.
    I do want to ask unanimous consent to include for the 
record of this hearing a statement from former Columbian 
President Uribe, which I referred to earlier, and also a 
statement from Jose Miguel Blanco from Human Rights Watch, 
which I believe Mr. Gonzalez referred to a moment ago in his 
testimony.


    [The information referred to above is located at the end of 
this hearing transcript.]


    Senator Rubio. And again, I want to thank everyone for 
being here today.
    The record of the hearing will remain open for 48 hours.
    And with that, this hearing is adjourned.


    [Whereupon, at 12:00 p.m., the hearing was adjourned.]

              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
    William Brownfield and Francisco Palmieri by Senator Marco Rubio

On Eradication
    Question 1. One of the unintended consequences of the peace process 
in Colombia may end up being a wave of cocaine coming towards our 
borders. Both the U.S. Government and the United Nations have estimated 
a dramatic spike in Colombia's coca cultivation and cocaine production, 
in part due to the Santos Government ceasing aerial eradication 
efforts.

   Do you foresee a surge in Colombian cocaine coming to the U.S.?
   Do you see crop substitution and manual eradication as viable tools 
        to decreasing coca crops in Colombia?
   How can the U.S. Government best support the Santos Government in 
        its counternarcotics efforts?

    Answer. The alarming surge in Colombian cocaine production since 
2013 has already increased the volume of Colombian cocaine coming to 
the United States, according to U.S. Government estimates. To curb the 
over 130 percent increase in coca cultivation in Colombia since 2013, 
the U.S. Government is supporting Colombia's implementation of a 
comprehensive, multi-year, whole-of-government strategy. Vice President 
Oscar Naranjo is leading Colombia's implementation of this strategy.
    Forced eradication and interdiction both increased this year thanks 
to Colombian commitment and strong Colombian capabilities developed 
with sustained assistance from the United States. The Colombian 
Government's coca crop reduction plan includes forced eradication and 
crop substitution coordinated through Strategic Operations Centers 
(CEOs in Spanish). The CEOs are strategically placed in high coca 
growing and narcotrafficking regions throughout Colombia and, if 
properly resourced and effectively implemented, could address coca 
cultivation. We continue to encourage President Santos' administration 
to address protestors who hamper forced eradication efforts and to 
maintain the use of extradition as a tool against narcotraffickers.
On Targeting of Civil Society:
    Question 2. One troubling trend has been the targeting of civil 
society activists, including trade unionists and human rights 
activists. According to the U.N. High Commissioner for Human Rights, in 
2016 alone there have been nearly 400 attacks on activists, including 
127 murders.

   What is the Santos Government doing to protect civil society 
        activists?
   Is this violence related to the peace plan?
   Do you expect there to be increases in "score settling" between 
        former combatants?
   If yes, is the Santos Government prepared to deal with a spike in 
        violence? Could this violence destabilize the peace plan?

    Answer. We are deeply concerned by reports of killings and threats 
against civil society activists and human rights defenders in Colombia. 
In its 2016 annual report, the UN Office of the High Commissioner for 
Human Rights in Colombia reported 59 verified killings of human rights 
defenders and 389 aggressions, which include killings, threats, 
infringement of the rights to property and privacy, enforced 
disappearances, and sexual violence. We support the Colombian 
Government's efforts to quickly and thoroughly investigate and 
prosecute those responsible for these crimes. Concrete results will be 
critical to prevent future violence and will affect peace accord 
implementation. The Colombian Attorney General's Office has prioritized 
investigations of recent killings of human rights defenders under the 
"Plan Esperanza" initiative. The first conviction in Colombia for a 
case involving threats against human rights defenders, in May 2017, was 
also a positive step forward. Furthermore, human rights groups have 
recognized the Attorney General's progress in prosecuting attacks on 
activists; though more work remains to be done to end impunity for 
political violence, which is a direct threat to democratic peace. We 
continue to engage the Colombian Government on these issues at the 
highest levels and urge concrete results.
    In the accord, the Colombian Government recommitted to ensuring 
security for all residents through new mechanisms and measures, 
including improvements to the National Protection Unit (UNP), which 
provides protection measures to at-risk citizens. In 2016, the UNP 
provided protection measures to 6,501 at-risk individuals. High-level 
Colombian officials, including President Santos, offer political 
protection to civil society activists through public statements 
condemning aggressions against them and supporting the work of these 
activists. President Santos inaugurated on February 23 the National 
Commission on Security Guarantees provided for in the peace accord, 
which will design and monitor interagency policies aimed at dismantling 
criminal organizations that threaten social movements, human rights 
defenders, and individuals engaged in peacebuilding. The Government 
also reactivated the Mesa Nacional de Garantias, a forum for the 
Government to meet with human rights defenders to discuss strategies, 
actions, and investigations in support of advocacy. In June 2017, the 
Office of the Inspector General released a new directive outlining how 
the Government should respond to protect activists.
    Though challenges remain with respect to violence against civil 
society activists, Colombia has made important advances. The bilateral 
ceasefire and peace accord between the Government and the FARC have 
resulted in an overall reduction of violence in Colombia. The Conflict 
Analysis Research Center reported that in 2016 levels of violence in 
the country fell to their lowest in 52 years in terms of the number of 
victims, combatants killed and injured, and the number of violent acts. 
In 2016, Colombia had its lowest reported homicide rate in at least 40 
years.
    We agree on the importance of adopting effective measures to 
protect social activists, human rights defenders, Afro-Colombian and 
indigenous leaders, and members of the political opposition who remain 
at risk with respect to threats and violence by illegal armed groups. 
We believe an integrated civilian-military government peace accord 
implementation plan that prioritizes expanding the state's presence to 
conflict-affected areas is critical to success and the protection of 
civil society leaders. We have underlined with the Colombian Government 
that more needs to be done to dismantle the illegal armed groups 
responsible for these crimes. The Colombian Government requested 
specific international "accompaniment" of the peace accord, including 
U.S. support for a provision in Section 3.4.4 of the accord providing 
for the creation of a special unit within the Attorney General's Office 
to focus on dismantling organized criminal groups. We are coordinating 
with the Colombian Government to see how our support would be most 
helpful.
    Dismantling illegal armed groups responsible much of the violence 
against civil society activists will also be essential to prevent 
potential "score-settling." In addition, the security guarantees in the 
peace accord provide for a comprehensive national strategy and new 
institutions to protect demobilized combatants, as well as human rights 
defenders, unionists, political actors, ethnic communities most 
affected by the conflict, and civil society leaders.
    The greatest near-term threats to accord implementation are 
inadequate government efforts to address continued criminality, attacks 
on rights defenders, and lack of government presence in rural Colombia. 
Effective civilian agencies that provide government services in remote 
areas will be important to sustain the peace.
On FARC Demobilization
    Question 3. On FARC Demobilization: The demobilization is a massive 
effort. The UN reports that the FARC has turned in more than 7,000 arms 
and thousands of former fighters have entered camps.

   Would you provide an update on the demobilization process?
   Has this process gone as you expected?
   What percentage of weapons do you think the FARC has turned in? 
        What do you believe happened to the rest? Are they sitting in a 
        bunker somewhere? Buried in the jungle? Sold to 
        narcotraffickers?
   Is any of the $391 million for Colombia going to support FARC 
        members who have not demobilized? How are you ensuring that 
        U.S. dollars are only going to those who are participating?
    Answer. The United Nations and the Government of Colombia remain 
committed to disarming the FARC rebels and decommissioning more than 
900 weapons caches outside the 26 UN-monitored disarmament zones. The 
UN has extracted roughly 218 of these caches as of July 24, and caches 
remaining after September 1 will be removed by the Government of 
Colombia. Outside these unrecovered arms caches, the number of FARC 
militia weapons remaining outside of UN control is unknown.
    Additionally, nearly 7,000 FARC members turned over their personal 
arms by June 27. That day, UN officials confirmed the rebels completed 
the surrender of almost all fighters' individual weapons. The United 
States strongly supports these achievements, which collectively 
represent a huge step towards peace after 52 years of conflict. They 
are also the culmination of more than 16 years of bipartisan U.S. 
support for peace in Colombia.
    The Security Council unanimously adopted Resolution 2366 on July 
10, establishing a second Special Political Mission (SPM) to verify 
implementation of several measures of the final agreement, including 
the political, economic, and social re-incorporation of the FARC as 
well as security programs and protection measures for communities and 
organizations in conflict-affected areas. This transition to a second 
SPM demonstrates progress in monitoring and verifying the laying down 
of arms by the FARC and the bilateral ceasefire and cessation of 
hostilities.
    The Department will continue to implement its foreign assistance 
activities in accordance with applicable U.S. laws. The United States 
provides technical assistance to Colombian reintegration agencies, 
which are providing former combatants services such as rehabilitation 
and education, as part of the reintegration process. This assistance 
will also help Colombia advance its counternarcotic and counter-
transnational organized crime strategies by bolstering rural police 
presence, expanding security aviation, increasing maritime 
interdiction, and helping ensure demobilized FARC combatants do not 
return to the battlefield or criminality.

    Question 4. Given the FARC's narcotrafficking past, do you expect 
some of the demobilized combatants to themselves have drug problems? If 
so, is the Colombian Government prepared to deal with an increase in 
those needing drug rehabilitation?

    Answer. The Colombian Ministry of Justice assesses that demobilized 
combatants are vulnerable to the abuse of drugs and alcohol due to 
difficulties and the shock of adapting to mainstream society. According 
to the Ministry of Justice, the country is not prepared to provide 
widespread treatment to overcome addiction in remote regions or small 
communities in the country where demobilized zones are located. The 
Colombian Ministry of Health created but has not yet implemented a 
reincorporation plan to deal with health issues, including the use of 
psychoactive substances, in these rural areas.
On the ELN
    Question 5. Do you believe that the Santos Government will be able 
to reach a deal with the ELN?
   What do you think the broad outline of that peace deal may look 
        like? Would it be similar to the FARC deal?
   Are you concerned that the ELN's leadership structure-much more 
        horizontal than the FARC-makes striking a deal observed by most 
        ELN members much more difficult?

    Answer. We welcome efforts by the Colombian Government and people 
to pursue the just and lasting peace Colombia deserves. The United 
States is not a party to the talks between the Colombian Government and 
the ELN. The Colombian Government has not requested U.S. Government 
involvement in the talks with the ELN, as it did in the case of the 
FARC, which led to the appointment of a U.S. Special Envoy.
    The agenda and the process of the ELN talks differ from that of the 
FARC peace process. When the Colombian Government and the ELN announced 
peace talks in March 2016, the parties said negotiations would focus 
on: (1) participation of society in constructing peace; (2) democracy 
for peace; (3) transformations for peace; (4) victims; (5) the end of 
armed conflict; and (6) implementation.
    The ELN's ideological intransigence and diffuse organizational 
structure could pose challenges to striking a deal. We are not in a 
position, however, to predict whether the Santos Government will reach 
a deal with the ELN.

    Question 6. Has the ELN taken over parts of the FARC's cocaine 
empire? How much has the ELN gained from the FARC peace plan?

   How is the Colombian Government dealing with the ripple effect, as 
        other groups fill the void the FARC is leaving behind?

    Answer. Since the ratification of the peace accord, the ELN has 
clearly expanded its narcotrafficking activities near the Colombian 
border with Venezuela in Catatumbo, Norte de Santander Department. The 
ELN's narcotics-related and other criminal activities also increased in 
areas where it has traditionally had a presence, such as Arauca, Cauca, 
Bajo Cauca, Antioquia, and others. As a general matter, in areas where 
the ELN and FARC shared territory, the ELN now controls more territory. 
Other criminal groups, especially the Clan del Golfo, have increased 
their criminal penetration into areas previously operated by the FARC, 
notably in Antioquia and Choc".
    To deal with the threat of expansion of the ELN, Clan del Golfo, 
and other bandas criminales (BACRIMs), the Colombian Ministry of 
Defense, launched or expanded named operations with the objective of 
dismantling the persistent threat posed by these organizations. 
Additionally, through Strategic Operations Centers (CEOs in Spanish), 
the Government of Colombia not only plans to curb coca cultivation and 
cocaine production, but is also expanding state presence in rural areas 
to prevent proliferation of new criminal organizations, increase access 
to justice and licit economic opportunities, and other social 
government services.
    While the ELN and other groups continue to fill the territorial 
void left by the FARC, we believe some demobilized FARC and certainly 
FARC dissidents continue to actively engage in narcotrafficking 
activities throughout Colombia. We continue to urge the Colombians to 
preserve the use of extradition as a law enforcement tool to ensure 
narcotraffickers do not fraudulently use the peace accord's 
transitional justice measures to avoid extradition.
On FARC Atrocities Committed against Americans:
    Question 7. On February 13, 2003, four Americans who were 
Department of Defense contractors on a U.S. Government counter-
narcotics flight mission in Colombia were shot down by the FARC. The 
pilot, Tom Janis, a retired member of the U.S. Army's Delta Force, was 
executed on the spot and three Floridians--Keith Stansell, Mark 
Gonzalez, and Tom Howes--were captured. They were held captive and 
severely tortured for over five and a half years, until they were 
rescued by the Colombian Army.
    While these Americans and the Janis family obtained a judgement in 
2010 under the Anti-Terrorism Act for damages against the FARC to 
compensate them for the FARC's acts of terrorism during their captivity 
and the execution of one American, there are no FARC assets in the 
United States besides drug money of FARC agents, traffickers, and money 
launderers. These assets are frozen under the Foreign Narcotics Kingpin 
Designation Act. Under current law, victims cannot access frozen assets 
under the Kingpin Act. In the 114th Congress, I co-sponsored 
legislation the Clarifying Amendment to Provide Terrorism Victims 
Equity Act (CAPTIVE Act) to change current law. While the bill passed 
the House by unanimous consent last year, it was stalled in the Senate 
when the Obama administration raised concerns about the bill that they 
failed to disclose during the House's consideration. In the meantime, 
the victims have been waiting 14 years for justice and have received 
little help from the U.S. Government that they served heroically.

   Ambassador Brownfield and Secretary Palmieri, do these men and 
        their families deserve justice? What would you say to them and 
        their families?

    Answer. The four U.S. Department of Defense contractors shot down 
by the FARC in 2003 were victims of a heinous crime, and they and their 
families deserve justice. Our highest priority is to protect the lives 
and interests of U.S. citizens.

    Question 8. How can we work together to find justice for them? What 
is the State Department's current view of the CAPTIVE Act?

    Answer. We agree it is essential to pursue meaningful justice and 
accountability on behalf of victims of the conflict, especially 
protecting the interests of U.S. victims of the conflict. We also have 
met with, briefed, and provided information to families of U.S. victims 
who have contacted us. We have explained how our foreign assistance 
provides technical assistance and capacity building support for 
Colombian institutions, including the Government's Victims' Unit and 
Colombian NGOs, which in turn provide essential services to conflict 
victims and advocacy on their behalf.
    In terms of the CAPTIVE Act, we are aware that the legislation has 
been reintroduced in the House and are monitoring efforts in this 
regard. We believe the FARC's stated commitment to making reparations 
to conflict victims and disclosing the full truth about its crimes 
should include the disclosure of information about their illicit 
finances. In an October 1 statement, the FARC committed to forfeit all 
assets-including monetary and non-monetary resources, such as land-in 
order to fund victim reparations. The Department remains committed to 
deepening our law enforcement and intelligence collaboration with 
Colombia to combat financial crimes, including with respect to the 
FARC's illicit finances.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Juan S. Gonzalez by Senator Marco Rubio

On Upcoming Elections
    Question 1. Congressional elections in Colombia are scheduled for 
March 2018, with a presidential election following in May 2018.

   Will the peace plan play a major role in the campaigns?

    Answer. Definitely. Already, the peace plan between the Government 
and the FARC has dominated Colombia's political discourse--and served 
as the main point of friction between the current and former 
president--since the negotiations began several years ago.

    Question 2. How do you see the 2018 Colombia presidential election 
affecting the peace process? If so, how?

    Answer. The peace process could very well determine the out come of 
the 2018 Colombian presidential election. Polls show that Colombian 
electorate overwhelmingly supports peace but is also highly skeptical 
of the agreement. The main candidates also agree--with varying degrees 
of nuance--on the need to continue implementing the agreement. The 
winner of the election will be the candidate who can articulate a way 
forward for ensuring accountability for the FARC, maintaining a central 
focus on the victims of the conflict, advancing consensus on the FARC's 
political participation, and addressing the rising cultivation of coca 
in Colombia. The challenge, however, will be in advancing a vision for 
peace in a way that does not prompt the FARC to retake up arms or 
undermine negotiations with the ELN.

    Question 3. Do you think that the ELN peace talks will be slowed 
down because of the upcoming elections?

    Answer. For various reasons, it is reasonable to expect the 
Colombian electoral calendar to delay talks with the ELN. The first is 
that the campaign will eat up a lot of the political bandwidth of the 
outgoing Colombian administration. The second, is that the ELN may want 
to evaluate the next president's position with regard to the agreement 
with the FARC. But most importantly, the next president of Colombia 
will have a lot on their plate, including finalizing tax reform, 
deciding whether to support a four-year renewal of the peace/war tax 
that since 2003 has supported the work of Colombia's security forces, 
all the while needing to take steps to reduce the fiscal deficit to 
under 2 percent by 2022 as required by law.
On the FARC
    Question 4. The demobilization and reintegration is going to be 
very difficult. It's going to be hard logistically, it's going to be 
hard culturally-FARC members just spent decades in the jungle, 
relatively removed from Colombian society-and, especially, emotionally. 
There are people who have lost fathers, sons, mothers, daughters, and 
siblings to the decades of war. That can't just be turned off because 
politicians sign a piece of paper.

   Do you believe that the Peace Accords will succeed?

    Answer. It took several years for the Colombian Government to reach 
an agreement with the FARC, but it will take at least generation to 
successfully implement the agreement and for Colombia to finally 
achieve reconciliation following a 50-year internal conflict. The 
accords will succeed with the following ingredients: First, the 
sustained bipartisan support of the United States. We are Colombia's 
strongest ally and they need us more now than ever. That doesn't mean 
the U.S. Congress should write Colombia a blank check, but we need to 
be actively present. Second, there needs to be a presence of the state 
in rural Colombia. That means the Colombian National Police needs to be 
able to fill the vacuum left by the military to guarantee the country's 
domestic security. It also means the Government needs to provide access 
to rule of law institutions to guarantee that anyone who breaks the law 
will face the consequences. Lastly, Colombia needs to grow 
economically, to continue reducing still-high levels of inequality, and 
to ensure access to quality education--so that the son or daughter of a 
reintegrated member of the FARC can forge a different path.

    Question 5. What are the most difficult parts of the Peace Accords?

    Answer. The most difficult part of the accord is reconciliation, 
because so many have been affected by what was the hemisphere's longest 
running internal armed conflict. That process will take time, and other 
such processes around the world tell us that not everyone will support 
the final balance between peace, justice, and truth. Countries like El 
Salvador and Argentina continue to struggle with the legacy of their 
peace accords.

    Question 6. What do you think the FARC's long game is?

    Answer. Unarguably, the FARC's priority is to undo Colombia's 
economic model and forge a Marxist state, but they've been in the 
jungles of Colombia far too long and have lost touch with the Colombian 
people. The FARC today is very unpopular and will struggle to find 
footing in Colombia's political system. Particularly if the Colombian 
Government can make significant inroads in reducing poverty and 
inequality, the FARC will be reduced to a fringe political element.

    Question 7. Pope Francis is expected to visit Colombia this year. 
How do you think this will impact the implementation of the Peace 
Accord?

    Answer. The visit of Pope Francis has the potential to unify 
Colombians behind a common vision for peace. Colombia has the largest 
percentage of Roman Catholics in Latin America, and his affirmative 
support for staying the course could refocus the current political 
friction toward a debate on how to implement the best agreement for 
Colombia.



                               __________


    Statement Submitted by Hon. Camilo Reyes, Ambassador of Colombia

    The hearing held today by Senator Rubio comes at a pivotal moment 
in Colombia's history, as we implement a historic Peace Agreement that 
brought more than a half-century of conflict to an end. For the first 
time in half a century, Colombia is a nation working to build stable 
and lasting peace. The path to peace has not been easy. Endeavors of 
this size and significance rarely are. We know that we face a number of 
challenges on Peace Agreement implementation. We also know that we are 
resolute in our commitment to peace for Colombia, and now, more than 
ever, further strengthening the bilateral alliance between Colombia and 
the United States is key. The U.S.-Colombia partnership is critical to 
advancing peace and prosperity in the Western Hemisphere and around the 
world.
    We will continue all of our efforts to strengthen our Armed Forces 
and combat crime as we implement the Agreement.
The Success of the U.S.-Colombia Partnership
    Colombia is the peaceful, stable nation it is today thanks in large 
part to the United States. The United States made a remarkable 
investment in Colombia's future with the Plan Colombia initiative in 
2000. Plan Colombia has proven to be the most successful bipartisan 
U.S. foreign aid effort to date.
    With Plan Colombia, my country went from the brink of failure to 
the most dynamic economy in Latin America. Plan Colombia also set the 
stage for peace. Today, Colombia has record investment from the world's 
leading companies and industries and is an innovation hub, a tourism 
hotspot and home to a competitive economy and workforce--and is on the 
verge of acceding to the OECD. Colombia has stepped in to help nations 
in Central America, the Caribbean and around the world confront 
security challenges--from regional initiatives to NATO. That is the 
power and promise of the U.S.-Colombia partnership.
    Colombia is the United States' strongest ally in Latin America, and 
together, we have been able to promote security, peace and prosperity 
in both of our countries. We are equally committed to continue working 
with the Northern Triangle countries--El Salvador, Guatemala and 
Honduras--to share lessons Colombia has learned through experience and 
much sacrifice--with the ultimate goal of achieving peace and 
prosperity throughout the Western Hemisphere.
    With a Peace Agreement secured and implementation firmly underway, 
Colombia is taking another historic leap on the path to sustained peace 
and prosperity.
Peace Agreement Implementation
    Peace Agreement implementation began as scheduled following the 
November 2016 conclusion of the Agreement. Many critical milestones 
have already been achieved. On June 27, 2017, the FARC, as scheduled, 
delivered more than 7,100 weapons to the United Nations (UN). Earlier 
this week, the UN collected the first container of additional FARC 
weapons. After the extraction of the containers, the UN will proceed to 
destroy some of the arms and use the remaining portion to construct 
three monuments by melting them down. These monuments will be erected 
in Colombia, at the UN headquarters in New York City and in Havana, 
Cuba.
    In addition to the Colombian Agency for Reincorporation and 
Normalization and other government entities, on July 10, 2017, the UN 
announced it will oversee former FARC members' reintegration into 
civilian life and civil society. Land and other agricultural reforms 
will continue to transform local communities throughout the country.
    The Government bears the ultimate responsibility for implementation 
of the Agreement, and is committed to successful implementation that 
includes citizen participation and promotes dialogue among different 
sectors of society to build trust and social inclusion. The transition 
to peace will continue to demand a great amount of time, resources and 
leadership in Colombia--as well as the continued support of the 
international community, including the United States.
    Both the Colombian Government and Colombian people are behind Peace 
Agreement implementation, and just as Colombian taxpayers covered 90 
percent of the costs associated with Plan Colombia, the same will be 
true with the transition to peace.
Ensuring Justice
    As part of the Peace Agreement, a Special Jurisdiction for Peace 
(JEP by its Spanish acronym) was established as the mechanism for 
ensuring justice. The JEP exceeds international standards and justice 
measures in other peace accords, complies with our international 
obligations and is consistent with the Colombian legal framework for 
peace--the legal foundation on which our Congress established the Peace 
Process.
    The JEP does not permit amnesty for the most serious international 
crimes, such as genocide, extrajudicial killings, forced displacement, 
etc. It creates an accountability system with a national tribunal. With 
this mechanism, we are setting a precedent for the international 
community, which may provide hope for addressing other armed conflicts 
across the globe.
    It is important to note that failure to comply with the Peace 
Agreement exposes FARC members not only to exclusion from the special 
treatment provided by the JEP and to face criminal proceedings before 
the regular criminal justice system, but also to losing all of the 
benefits of reincorporation.
    In addition, if conditions under the Peace Agreement--truth, 
reparation and non-repetition--are not complied with, FARC members have 
to go to jail and may be extradited. In Colombia, extradition is a 
presidential political decision, and you can be assured, it is a matter 
that will be considered with the highest degree of seriousness.
Combatting Drug Trafficking
    We know that combatting drug trafficking is one of the many 
challenges we must solve in order for Peace Agreement implementation to 
be successful. Fighting illicit drugs was one of the driving reasons 
for embarking on this Peace Agreement, and the world can be sure we are 
focused on and committed to combatting drug trafficking as we work to 
implement the Peace Agreement. No nation has suffered the scourge of 
illicit drugs more than Colombia.
    The Government recognizes the importance of increasing national and 
regional efforts and maintaining pressure on all links in the drug 
trafficking chain. Peace Agreement implementation is transforming 
territories and providing solutions to the problem of illicit drugs.
    In addition to combatting drug trafficking through Peace Agreement 
implementation, we have launched a robust three-year counter-narcotics 
strategy, which includes three key components: transformation and 
development of communities and territories; interdiction and crime 
policies; and consumption prevention and treatment of addiction.
    The Presidency's High Counselor for the Post-Conflict has 
established a new agency, the Department for Comprehensive Attention in 
the Fight Against Drugs. This Department is leading efforts to 
significantly increase crop substitution agreements by involving all 
individuals in affected areas, allowing for inter-agency cooperation 
through coordination among local and regional communities, governments 
and the private sector, incentivizing communities to completely abandon 
all connections to drug trafficking.
    The Defense Ministry will focus its strategy on strengthening 
naval, fluvial, aerial and terrestrial interdiction; eradication of 
illicit crops; and also taking action against criminal organizations by 
attacking their logistic and financial infrastructure in efforts to 
improve the wellbeing of communities.
    The goal is to eradicate 100,000 hectares of coca crops--50,000 
hectares through forced eradication and 50,000 hectares through crop 
substitution agreements. Every 50,000 hectares of illicit crops 
eradicated results in the elimination of 300 tons of cocaine 
production; 750 million fewer doses; and stops nearly $10 billion from 
going to criminals.
    Recently, the Government has achieved a number of advances in the 
fight against drug trafficking. Between January and July 2017, the 
National Police and the Armed Forces eradicated 23,000 hectares of 
coca, which represents 48 percent of the total goal for the year. On 
drug interdiction, last year Colombia seized 50 percent of all cocaine 
produced in the country and was responsible for 34 percent of cocaine 
seized worldwide. Looking at the year to date, Colombian authorities 
have seized 221 tons of cocaine, an 11-percent increase compared to the 
same time period in 2016. Destruction of drug production laboratories 
is also on the rise, as 4,864 were destroyed in 2016, a 24-percent 
increase over 2015. In addition, thus far in 2017, another 2,235 labs 
destroyed have added to our success. When comparing the period from 
January--July 2016 and January--July 2017, in 2017, eradication is up 
107 percent, cocaine seizures are up 13 percent and seizures of 
chemical drug inputs are up 35 percent.
    Regarding the crop substitution program, the Government has also 
signed 43 collective agreements that cover 91,000 families who will 
voluntarily substitute 76,617 to 80,000 hectares of coca in 13 
departments.
    Of all of Colombia's municipalities, 83 percent are free of illicit 
crops--leaving 17 percent of municipalities as the areas of focus for 
eradication and substitution efforts. Nearly half (48 percent) of all 
illicit crops are located in 1 percent of municipalities. These 
advances will only increase as we move forward with implementation of 
the Peace Agreement and our new counter-narcotics strategy.
    Colombia's fight against coca cultivation and cocaine production is 
long-standing, continual and far from over, as the latest production 
numbers show. Colombia is more committed than ever to ending the flow 
of drugs--from seed to shipment--and we remain a partner with the 
United States in this effort.
A Bipartisan Roadmap Forward for the U.S.-Colombia Partnership
    The issues discussed during today's hearing were the focal point of 
a report released in May by the Atlantic Council's bipartisan Colombia 
Peace and Prosperity Task Force. The Task Force is composed of members 
of Congress from both parties, former senior foreign policy experts 
from every administration since President Reagan, as well as the 
private sector and the leading think tanks on Latin American policy in 
the United States.
    Co-chaired by Senators Roy Blunt (R-MO) and Ben Cardin (D-MD), the 
Task Force issued recommendations on the roadmap for the future of the 
U.S.-Colombia partnership, including:

 1. Establish Peace Colombia as the ongoing strategic framework for 
        U.S. policy.
 2. Recognize that robust peace accord compliance and implementation 
        are critical to U.S. national security interests and regional 
        stability.
 3. Put forward policies that expand U.S.-Colombia cooperation in order 
        to achieve concrete victories against transnational criminal 
        networks.
 4. Deepen U.S. commercial and economic cooperation through Peace 
        Colombia and the existing Trade Promotion Agreement framework.
 5. Expand the shared security portfolio in international hotspots 
        where Colombian military and peace-building expertise can play 
        a pivotal role to advance U.S. interests globally.

    It is important to emphasize the bipartisan process that produced 
this road map. The U.S.-Colombia alliance is built on a solid 
foundation of bipartisan support. Successive Colombian Governments have 
worked with U.S. presidents from both political parties as well as with 
Republican- and Democrat-controlled Congresses, and we look forward to 
continuing to advance the bilateral partnership with strong bipartisan 
support. It was strong bipartisan support that made Plan Colombia--a 
U.S.-Colombia effort that helped transform Colombia--the most 
successful U.S. bilateral initiative with a foreign nation; and it is 
strong bipartisan support that will make the next phase of Plan 
Colombia--the Peace Colombia initiative--successful as well.
Conclusion
    In conclusion, as a nation at peace, Colombia now has the 
opportunity to reinforce the security gains our nations have achieved 
together and usher in a new era of cooperation that will deepen the 
U.S.-Colombia partnership. Colombia's progress benefits Colombians and 
Americans and helps ensure stability and security across the entire 
Western Hemisphere. The partnership with the United States that has 
helped make Colombia a beacon of hope and an example for other 
countries in the region can be shored up through our continued 
partnership. Given our history of success and progress, Colombia and 
the United States are well positioned to achieve even more together.



                               __________


         Statement Submitted by Jose Miguel Vivanco, Executive 
         Director of the Americas Division, Human Rights Watch

    Mr. Chairman, committee members, Thank you for the invitation to 
appear before the Senate Committee on Foreign Relations on behalf of 
Human Rights Watch (HRW) to discuss our assessment of the justice 
component of the peace accord between the Colombian Government and the 
Revolutionary Armed Forces of Colombia (FARC) guerrillas. I would like 
to submit, for the record, my written testimony.
    Let me first stress that HRW applauds the efforts of the Colombian 
Government to bring an end to the country's long and bloody conflict 
which has caused so much suffering to its people. The peace accord 
signed on November 12, 2016, undoubtedly poses a landmark opportunity 
to advance the protection of fundamental human rights in the country. 
Indeed, since the ceasefire amongst the parties to the accord, Colombia 
has benefited from a very significant decrease in reports of human 
rights abuses.\1\
---------------------------------------------------------------------------
    \1\ See, e.g., Human Rights Watch, World Report 2017 (New York: 
Human Rights Watch, 2017), Colombia chapter,
---------------------------------------------------------------------------
    Human Rights Watch, however, has very serious concerns regarding 
the justice component of the accord, which could seriously undermine 
the prospects for a sustainable peace.
    The FARC committed systematic atrocities for more than five 
decades, beginning in the 1960s. Its forces killed and abducted 
civilians, took hostages, carried out enforced disappearances, used 
child soldiers, conducted grossly unfair trials, forcibly displaced 
civilians, and subjected captured combatants to cruel and inhuman 
treatment.
    Army soldiers also engaged in atrocities. Between 2002 and 2008, 
army brigades across Colombia killed more than 3,000 civilians, in what 
are known as ``false positive'' cases. Under pressure from superiors to 
show ``positive'' results and boost body counts in the war against 
guerrillas, soldiers abducted victims or lured them to remote locations 
under false pretenses. The soldiers killed them, placed weapons on 
their bodies, and reported them as enemy combatants killed in action.
    Human Rights Watch is concerned that, as it stands, the justice 
component of the accord could allow those responsible for many of these 
atrocious crimes to escape meaningful justice. The key shortcomings in 
the justice component of the accord include the following:
Sanctions
    First, the accord provides that war criminals who fully and 
promptly confess their crimes would be exempt from any time in prison 
and would be subjected to modest and vaguely-defined ``restrictions of 
rights and liberties.'' While the final accord reached in November 
provided a little more clarity regarding these sanctions, there are 
still a range of ambiguities and loopholes that can and should be 
addressed in the implementing legislation of the accord to ensure that 
war criminals are not allowed to escape meaningful punishment.\2\
---------------------------------------------------------------------------
    \2\ See Human Rights Watch, ``Letter to President Santos on the new 
peace agreement with the FARC,'' November 23, 2016.
---------------------------------------------------------------------------
    As they stand, such sanctions could run counter to Colombia's 
obligation under international law to provide sentences that reflect 
the gravity of the offense. Indeed, Human Rights Watch knows of no 
precedent from other courts or tribunals adjudicating war crimes where 
those most responsible for the worst crimes did not face custodial 
sentences.
Command responsibility
    Second, the agreement includes a clause that would make it possible 
for military commanders to escape responsibility for the atrocities 
committed by their troops by claiming they did not know about them. But 
under the international law principle of ``command responsibility'' 
prosecutors do not need to prove that commanders actually knew about 
the crime--which is often impossible--but only that they had reason to 
know and should have known.\3\
---------------------------------------------------------------------------
    \3\ See Human Rights Watch, ``Letter to President Santos on the new 
peace agreement with the FARC,'' November 23, 2016.
---------------------------------------------------------------------------
    What is worse, in April 2017, the Colombian congress passed a 
constitutional amendment establishing a special definition of ``command 
responsibility'' for army soldiers that, if accepted by the country's 
Constitutional Court, would require prosecutors to prove several 
additional conditions--such as showing that the criminal actions were 
committed within a commander's area of responsibility--that are not 
required under international law.\4\
---------------------------------------------------------------------------
    \4\ See Human Rights Watch, ``Letter on `Command Responsibility' in 
the Implementing Legislation of the Peace Agreement,'' January 25, 
2017. Human Rights Watch, ``Colombia: Amicus Curiae regarding the 
Special Jurisdiction for Peace,'' July 17, 2017.
---------------------------------------------------------------------------
    These changes would introduce new and indefensible barriers to 
accountability for armed forces personnel. In particular, they could 
allow senior officers responsible for ``false positive'' killings to 
escape justice. While more than 1,000 soldiers have been convicted for 
these crimes, few commanders who led brigades responsible for the 
killings and later rose through the military ranks have been held 
accountable. Amongst the officers who commanded brigades responsible 
for multiple killings are General Juan Pablo Rodriguez Barrag n, who is 
currently the country's top commander, and retired General Jaime 
Alfonso Lasprilla Villamizar, who at least until recently was--and as 
far as we know still is--Colombia's defense attache in Washington.\5\
---------------------------------------------------------------------------
    \5\ For more information on these and other commanders see Human 
Rights Watch, On Their Watch: Evidence of Senior Army Officers' 
Responsibility for False Positive Killings in Colombia, June 24, 2015.  
See also Kevin G. Hall and Brittany Peterson, ``Why was this Colombian 
general posted to his country's Washington embassy?'' The Miami Herald, 
April 11, 2017,
---------------------------------------------------------------------------
    Third, the justice component of the accord includes a broad 
provision allowing FARC guerrillas to seek or hold public office even 
while serving sentences for grave abuses. We understand that a 
fundamental aim of the peace process is to allow the former FARC 
guerillas to pursue their political objectives within the democratic 
arena. But allowing people convicted of war crimes or crimes against 
humanity to run for and hold political office while serving their 
sentences would severely undermine the credibility and seriousness of 
the sanctions imposed by the Special Jurisdiction for Peace.
Amnesty law
    Finally, while the accord provides that amnesties would not cover 
serious human rights violations, an amnesty law passed last December 
includes language that could allow people responsible for atrocities to 
benefit from amnesties. For example, the law allows those responsible 
for certain war crimes to benefit from amnesties if they are able to 
show that their crimes were not committed in a systematic manner. 
Colombia, however, has an obligation to investigate, and where 
appropriate prosecute, all war crimes, regardless of whether these were 
systematic.\6\
---------------------------------------------------------------------------
    \6\ See Human Rights Watch, ``Letter to President Santos on the 
Amnesty Bill,'' December 25, 2016.
---------------------------------------------------------------------------
    In the upcoming months, Colombian authorities have a chance to fix 
these shortcomings ideally through implementing legislation, or, 
failing that, through the Constitutional Court--which, in the past, 
played a key role in ensuring justice for victims of the armed 
conflict. Only by addressing these issues would Colombia be able to 
achieve a just and sustainable peace.
    Mr. Chairman and committee members, thank you for your attention to 
this critical issue.



                               __________


               Statement Submitted by Alvaro Uribe Velez

        Below are some comments, from my point of view, on the current 
        situation in Colombia and the peace deal reached by and between 
        the Santos administration and FARC.

    It is important to repeat that the Colombian Government ignored the 
triumph achieved by the No vote supporters in the plebiscite. The 
polling threshold was lowered by the Government, from 50 percent to 13 
percent of YES votes. This victory was achieved by the No vote 
supporters in spite of the widespread international support, the 
unlimited amounts of money, and the propaganda machine in favor of the 
Yes vote. The Colombian Government did not substantially change the 
deals and, with the incomprehensible support from the Constitutional 
Court of Colombia, ratified the deal by means of a proposal in the 
Colombian Congress, clearly contradicting the plebiscite results.

 1. Production of narcotics. Coca crops where reduced from 170,000 
        hectares in 2001 to 78,000 in 2012. Nowadays, according to 
        White House's estimates, there are 188,000 ha, which is the 
        highest figure in Colombian history. Drug use and addiction, 
        criminality, and blackmail figures have simultaneously 
        increased. Our economy is not in recession owing to the plague 
        of drug trafficking.

 2. The cause of this dangerous trend. The Colombian Government stopped 
        fumigating illegal crops in order to please FARC terrorists. 
        Manual eradication was reduced and progresses only if permitted 
        by communities, which are continuously subject to pressure by 
        FARC.

    Even though illegal crops increased by 141 percent in Colombia from 
2012 through 2016, this increase started as of 2013, which is the year 
after talks were started by and between Santos administration and FARC, 
with an increase of 3.2 percent. The highest increases were 39.1 
percent and 42 percent in 2014 and 2015 respectively, which were the 
years where aerial crop dusting was banned and the lack of penalties 
for narcoterrorists was confirmed.
    Unfortunately, Colombia became again the world's biggest producer 
of illegal crops.

 3. Justice scheme for FARC. FARC group has designed its own justice 
        scheme. Justices will be appointed by people who are renowned 
        for their support to terrorism and share the alleged FARC's 
        ideology. According to Act 01 dated 2017, FARC ringleaders and 
        their assistants have been granted impunity and eligibility for 
        politics, whatever the crime committed. Atrocious crimes, such 
        as recruiting minors and assaults on women, will continue to go 
        unpunished. Ringleaders' freedom is somewhat restricted. That 
        penalty is inappropriate and inapplicable because culprits will 
        not serve jail sentences and, simultaneously, may run for 
        Congress or any other public office. The idea that rebellion 
        was funded by drug trafficking became the excuse for accepting 
        this crime as one related to political crimes committed by FARC 
        guerrillas who will enjoy total impunity and eligibility for 
        politics and cannot be extradited. Alias Simon Trinidad is 
        serving a sentence in the United States for drug trafficking 
        and the kidnapping of three American citizens. However, his 
        accomplices are enjoying impunity in Colombia.

 4. FARC group will not give up their illegal fortune. According to 
        Presidential Decree 903 dated 2017, FARC are allowed to finance 
        their political proselytism by using illegal funds from drug 
        trafficking and kidnapping, etc., instead of paying reparations 
        to their victims.

 5. FARC members may be elected for public office. According to Act 03 
        dated 2017, FARC members will have their own political party 
        funded by more money than any other political party in 
        Colombia. And, what is more, President Santos gave FARC 10 
        seats in the Congress and public funds for their think tank. 
        Additionally, they would have a seat in the Colombia's National 
        Electoral Council (Colombia's highest body in charge of 
        organizing the elections), which is a benefit that older 
        parties have never enjoyed.

 6. Constitution replaced. Colombian Constitution has been replaced by 
        the deal reached with FARC. According to article 1 of Act 02 
        dated 2017, by which an interim article is added to the 
        Constitution, ``the State's institutions and authorities must 
        bona fide honor the provisions set forth in the Final Deal'' 
        and, therefore, any regulations passed ``must be consistent 
        with and integral to what has been agreed'' with FARC, for the 
        next 12 years.

 7. Children and weapons. Out of more than 11,000 children who were 
        recruited, only few of them (less than 90) have gone back to 
        their families' home. FARC recently announced that they would 
        not release any more minors. And, what is worse, guerrilla 
        leader alias Iv n M rquez, when asked two days ago by a 
        journalist on the release of minors recruited, replied: ``What 
        do they want if weapons have already been given up and FARC is 
        no longer an armed organization? That is just to bother, to 
        disturb, and just to try to cause controversy.''

    Our intelligence services estimated some years ago that 40,000 
weapons are kept by FARC. Colombian President recently stated that such 
a terrorist organization was going to give up 14,000 weapons. The 
Minister of Defense of Colombia said that 11,000 of those weapons were 
rifles. Nevertheless, FARC members decommissioned just 7,132 weapons. 
No information has been given on missiles and other dangerous weapons 
owned by FARC.
    In 2016, a military intelligence source, with expertise in 
armaments, asked by the El Colombiano newspaper, estimated that the 80 
guerrilla squads, together with their support networks, might be 
keeping more than 45,000 weapons of all kinds: ``there might be around 
30,000 long guns, i.e. rifles or machine guns, while there might be 
around 15,000 or 20,000 handguns, such as pistols. However, most of 
such arsenal may not be in good condition,'' the official said.
    Recently, Juan Carlos Pinzon, former Colombian ambassador to the 
United States, posted on his Twitter `PinzonBueno:' ``It is a mistake 
to celebrate the laying down of the arms as though this were done in 
its entirety. It is clear that FARC and their dissident groups are 
keeping arms. More transparency, please!''
    Governor of Antioquia, Luis Perez Gutierrez, reported on July 25 
that some FARC guerrillas who were expelled from or abandoned town 
district rural areas are now members of new armed groups who have 
benefited from the arsenal hidden in the above-mentioned guerrilla 
group's underground storerooms in Antioquia:

    ``We have been informed that, in the rural areas of the towns of 
Dabeiba and Ituango, at least 14 guerrillas who know where such arsenal 
is have been expelled from or have abandoned those areas, resulting in 
arming those two new illegal groups. Now the authorities must go after 
those crooks.''

 8. Present and future. In oppressing democracy, independence of 
        institutions, and warranties for the private sector, the 
        current Juan Manuel SANTOS administration has not gone too far 
        as Mr. Maduro in Venezuela, but the former's legacy will allow 
        any potentially weak or pro-FARC governments to go on the same 
        track in the future. The poor--since they are desperate, 
        deprived of opportunities due to the lack of private 
        investment, and suffering due to violence--will not distinguish 
        the difference between our Rule of Law and the neighboring 
        tyranny. Colombia needs profound changes, otherwise we are 
        condemned to become Mr. Maduro's second version.

Yours truly and respectfully,

    Alvaro Uribe Velez



                               __________


                                  [all]
</pre></body></html>
